<html>
<title> - ANTI-TERRORISM INVESTIGATIONS AND THE FOURTH AMENDMENT AFTER SEPTEMBER 11, 2001</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
ANTI-TERRORISM INVESTIGATIONS AND THE FOURTH AMENDMENT AFTER SEPTEMBER 
                                11, 2001

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2003

                               __________

                             Serial No. 35

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary







                        U.S. GOVERNMENT PRINTING OFFICE

87-238                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001

                             



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

STEVE KING, Iowa                     JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MELISSA A. HART, Pennsylvania        ADAM B. SCHIFF, California
TOM FEENEY, Florida
J. RANDY FORBES, Virginia

                   Crystal M. Roberts, Chief Counsel

                        Paul B. Taylor, Counsel

                     D. Michael Hurst, Jr., Counsel

                  Mindy Barry, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              

                              MAY 20, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress From the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable Jerrold Nadler, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     3
The Honorable Melvin L. Watt, a Representative in Congress From 
  the State of North Carolina....................................     5

                               WITNESSES

Mr. Viet D. Dinh, Assistant Attorney General for the Office of 
  Legal Policy, Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. James X. Dempsey, Executive Director, The Center for 
  Democracy and Technology
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Mr. Orin Kerr, Associate Law Professor, George Washington 
  University Law School
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Paul Rosenzweig, Senior Research Fellow, The Heritage 
  Foundation
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28

                                APPENDIX
               Material Submitted for the Hearing Record

Additional questions submitted by Chairman Steve Chabot to 
  Assistant Attorney General Viet D. Dinh........................    59
Letter from Assistant Attorney General Viet D. Dinh in response 
  to questions submitted by Chairman Steve Chabot................    61
Legal Brief submitted by Rep. Robert C. Scott....................    65


ANTI-TERRORISM INVESTIGATIONS AND THE FOURTH AMENDMENT AFTER SEPTEMBER 
                                11, 2001

                              ----------                              


                         TUESDAY, MAY 20, 2003

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve Chabot 
(Chairman of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order. This is the 
Subcommittee on the Constitution.
    The Fourth Amendment provides that the right of the people 
to be secure in their persons, houses, papers, and effects 
against unreasonable searches and seizures shall not be 
violated. Our hearing today will consider the extent to which 
the implementation of the USA PATRIOT Act and some recent 
changes to the FBI's investigative guidelines comport with the 
Fourth Amendment and Fourth Amendment values.
    In particular, the hearing will consider where and when the 
Federal Government can go to search the addressing information 
of electronic communications, library records, and public 
settings in order to prevent terrorist attacks.
    The attacks on September 11 had a profound impact on our 
Nation and, in 1 day, changed the country's views on terrorism 
in many ways. In the wake of these tragic events, Congress 
stepped in and updated the law to fully engage in combatting 
terrorism by passing the USA PATRIOT Act. Changes to the law 
are still ongoing as current events unfold across the globe. 
Today, the threat of danger remains despite our military 
accomplishments in Afghanistan and Iraq. The recent deadly 
bombings in Israel, Morocco, and Saudi Arabia, and the raised 
terror alert in our country, show the need for law enforcement 
to be equipped with the tools to combat the threat of 
terrorism.
    During the debate over the PATRIOT Act in the House, many 
of us in Congress, including myself, raised concerns about 
infringing on the civil liberties of the American people and, 
therefore, supported protective measures, such as the sunset. 
As we move forward in the process of providing the strong 
measures that are necessary to combat terrorism, we must also 
keep in mind the importance of protecting civil liberties 
Americans hold dear.
    The Constitution Subcommittee gathers today to join the 
public debate regarding the balance between effective anti-
terrorism measures and civil liberties, keeping in mind that 
one need not be the enemy of the other, while terrorism is the 
enemy of both.
    Today, we meet to address several recent developments.
    First, prior to the enactment of the USA PATRIOT Act, the 
Federal Government was allowed to access the numbers dialed on 
a telephone line if a Government attorney certified to the 
court that the information likely to be obtained is relevant to 
an ongoing criminal investigation. Although this authority 
allowed Government access only to numbers dialed on a telephone 
line, it has been used by the Department of Justice to obtain 
e-mail addresses, even if they contained only letters, names, 
or words, and no numbers.
    The Department was doing so on the theory that while e-mail 
addresses are commonly referred to by names, such names are 
viewed by the computers as numbers because of the binary system 
of zeros and ones. Recognizing that such an argument could by 
its internal logic make the full substance of electronic 
communications accessible to the Government as digits, many 
were concerned at the time that the Government's retrieval of 
e-mail addresses was an unreasonably broad reading of the 
statutory terms.
    The changes made by the USA PATRIOT Act made clear that 
addressing information of electronic communications could be 
obtained by the Government by explicitly authorizing the 
retrieval of dialing, routing, addressing, and signal 
information. However, the USA PATRIOT Act also strengthened 
privacy protections by clarifying that such addressing 
information obtained shall not include the contents of any 
communication. Further, the USA PATRIOT Act added new 
conditions on the use of so-called data-sniffing programs used 
by the FBI to gather electronic communications, including a 
requirement that records be maintained regarding how such 
programs are used, when they're used, how often they're used, 
and what they collect. Today we will examine whether the 
changes made by the USA PATRIOT Act regarding the Government's 
access to electronic addressing information have struck the 
proper balance.
    Second, several of the September 11 terrorists used 
computers at public libraries to access the Internet. The USA 
PATRIOT Act updated the laws to make it more difficult for 
terrorists to use public places, including public libraries, to 
plot and carry out terrorist attacks. Prior to passage of the 
USA PATRIOT Act, FISA, the Foreign Intelligence Surveillance 
Act, empowered FISA courts to grant the FBI access to only 
certain business records, namely those in the custody of common 
carriers and businesses that provided public accommodations. 
The USA PATRIOT Act amended FISA such that any tangible item 
could be obtained with a FISA order--a term that can include 
library records. Today we will examine whether the changes made 
by the USA PATRIOT Act to the FISA law in this regard have 
struck the proper balance.
    Third, terrorist organizations operating in this country 
have also used public places, including places of worship and 
public websites, as recruiting grounds and gathering places. 
Last year, changes were made to the FBI's internal guidelines 
that authorized FBI agents to visit any place and attend any 
event that is open to the public on the same terms and 
conditions as members of the public generally. These changes 
have made information available to FBI agents on a par with 
local police and even young children accessing the Internet. 
Others, however, have argued that the knowledge that political 
activity at public events could be monitored by the Government 
will chill free speech without significant benefits. Today, 
we'll also examine whether these changes made to the FBI's 
internal guidelines have struck the proper balance.
    When Congress was debating the USA PATRIOT Act, which would 
give law enforcement new tools to combat terrorism, we promised 
to conduct vigilant oversight over the implementation of these 
laws. This hearing today is a continuation of this important 
oversight, and we look forward to hearing from our witnesses 
here this afternoon.
    I'll now yield to the gentleman from New York, Mr. Nadler, 
for his opening statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    Today, we review the USA PATRIOT Act, legislation that was 
rushed into law in a manner that was, to say the least, not 
conducive to careful and thoughtful consideration. While the 
Members of our Committee worked cooperatively to forge 
legislation that won unanimous and bipartisan support--
something rather unusual on this Committee--after, as I recall, 
a 4-day markup carefully considering amendments and carefully 
considering the balancing between privacy considerations and 
national security, the legislation that was ultimately signed 
into law bore little resemblance to the one we reported.
    That legislation was drafted in secret over a weekend by 
representatives of the Department of Justice and the House 
leadership, was brought to the floor with no one having an 
opportunity to see it in advance. Members had to vote on a 
multi-hundred page bill, with no one having had a chance to 
even read the bill, except for staffs. The bill was available 
an hour in advance. People had to vote based on summaries.
    This was shameful procedure to deal with legislation of 
such vital import and impact on our very liberties. When people 
said that we would have an opportunity to vet the legislation, 
to send it out to law schools and civil liberty unions and 
other groups that are interested for their comments, we were 
told that the ideas in this legislation had been around for a 
long time. True. Lots of ideas have been around for a long 
time. It doesn't make them good ideas. It also wasn't clear 
which ideas had gotten into the bill, the extent to which those 
ideas have gotten into the bill, the form those ideas had 
gotten into the bill. We were voting on the basic summaries. 
And we were told we didn't have time to consider the 
legislation properly because, if it were delayed by several 
days, lives could be lost.
    With this kind of hysteria, the bill was passed almost 
sight unseen by the House, unfortunately. Now we are under--we 
are going to do the kind of oversight that we really should 
have done before voting on the bill. And it's about time we 
are. There were and have been bipartisan concerns that powers 
extended under the rubric of fighting terrorism, in fact allow 
Federal agencies to reach well beyond the war on terrorism to 
target the privacy and fundamental liberties of average law-
abiding Americans. Our witnesses today provide extensive 
evidence that the concerns of those who oppose this law as well 
as those who voted for it despite their misgivings have been 
borne out.
    Of even greater concern is the extent to which this 
Administration's penchant for excessive secrecy has thwarted 
the Members of this Committee in the discharge of our 
constitutional duty to provide oversight of those activities 
within our jurisdiction and to monitor the strengths and 
weaknesses of the law and its implementation. I would hope that 
the Administration would be more responsive to congressional 
requests for specific rather than general information. ``We 
can't tell you'' or, in effect, ``it's none of your business'' 
are not adequate or acceptable answers to a congressional 
Committee seeking to exercise its legitimate oversight 
functions. While I do not often find myself in agreement with 
the Heritage Foundation, I think that we need to hear the--heed 
the warning Mr. Rosenzweig makes in his testimony on the need 
for careful and continuous congressional oversight.
    Mr. Chairman, no one needs to instruct me about the dangers 
of terrorism or the need to fight it effectively. My District 
has been the target of repeated terrorist attacks, not only the 
September 11 attack on the World Trade Center, but on several 
occasions prior to that terrible day. Even now, there isn't a 
single New Yorker who's not acutely aware that when--not if--
future acts of terror are attempted against this country, it 
will likely be our homes, our workplaces, our families, our 
neighbors, and our friends who will be at the top of the 
terrorist lists. No community has a greater stake in a 
successful war on terrorism than mine.
    And yet, the--my constituents are consistently among the 
most outspoken defenders of individual rights in this war on 
terrorism. They do this not because they're indifferent to 
their own safety, but because they understand that the choice 
between liberty and safety is too often a false one. The abuse 
of power is never a substitute for effective police work. As 
Mr. Rosenzweig states in his prepared testimony, ``Any new 
intrusion must be justified by a demonstration of its 
effectiveness in diminishing the threat.''
    It is not clear to me that targeting citizens or 
organizations without any basis for suspicion that they are 
engaged in illegal activity justifies a violation of their 
privacy or that it is necessarily the most effective way to 
provide for the safety and security of our Nation. I hope the 
Administration can reassure me on this point.
    So Mr. Chairman, I look forward to the testimony of our 
panel. Liberty and security must not be partisan issues. They 
represent the fundamental underpinnings of the American way of 
life. We legislated in hysteria in October of 2001. We have 
done this before in times of crisis. It is now time for a sober 
second look. I want to commend you for scheduling this hearing.
    I hope that we will be able to work together to provide 
consistent and effective oversight of this pressing and timely 
issue, and I hope that we can pass into law any necessary 
amendments that we find to be necessary as a result of these 
hearings. In particular, I'm interested in how the 
Administration can justify the kind of intrusive oversight, 
shall we say, of what people read in libraries that is included 
in this act. And I look forward to your testimony--to their 
testimony. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. Do any other Members want to make 
opening statements? Mr. Jenkins? Mr. Scott? Any of the Members? 
Mr. Watt?
    Mr. Watt. Thank you, Mr. Chairman. I'll be brief. I just 
wanted to take the opportunity to thank the Chairman for 
convening this hearing. I really can't think of a subject that 
cries out for a hearing more than the issue that's before us 
today. And I hope that this will be the first hearing and 
prelude to a full Committee hearing on this issue. And I hope, 
beyond that, that the Members of this House will use the 
information that is being submitted at this hearing and 
subsequent hearings to inform themselves better about how to 
strike an appropriate balance in these difficult times, and 
make sure that the constitutional imperatives are safeguarded.
    I thank the Chairman for convening the hearing. I hope he 
will encourage the full Committee chair, as we have been doing, 
to have a follow-up hearing about the same issue. Thank you. 
Yield back.
    Mr. Chabot. Thank you. I would like to introduce the panel 
at this time, and we have a very distinguished panel this 
afternoon. I will start with our first witness, Viet Dinh. Mr. 
Dinh is assistant attorney general for the Office of Legal 
Policy at the Department of Justice. Prior to his entry into 
Government service, Mr. Dinh was professor of law and deputy 
director of Asian Law and Policy Studies at the Georgetown 
University Law Center. Mr. Dinh has also been a law clerk to 
Judge Lawrence Silverman of the U.S. Court of Appeals for the 
D.C. Circuit and to U.S. Supreme Court Justice Sandra Day 
O'Connor. We welcome you this afternoon, Mr. Dinh.
    Our second witness is James Dempsey, the executive director 
of The Center For Democracy and Technology, where he works on 
privacy and electronic surveillance issues. Prior to joining 
the center, Mr. Dempsey was deputy director of the Center for 
National Security Studies. From 1985 to 1994, Mr. Dempsey was 
assistant counsel to this Subcommittee, where his primary areas 
of responsibility were oversight of the Federal Bureau of 
Investigation, privacy, and civil liberties. And we welcome you 
here this afternoon, Mr. Dempsey.
    Our third witness is Orin Kerr, an associate law professor 
at the Georgetown Law--at the George Washington University Law 
School. Prior to his professorship, Mr. Kerr served for 3 years 
as a trial attorney in the Computer Crime and Intellectual 
Property Section of the Criminal Division at the U.S. 
Department of Justice. He has also served as a special 
assistant U.S. attorney for the Eastern District of Virginia, 
and since leaving the Government, he has worked on a pro bono 
basis as a criminal defense lawyer in computer crime cases. And 
we welcome you here this afternoon, Mr. Kerr.
    And our final witness today is Paul Rosenzweig, a senior 
legal research fellow in the Center for Legal and Judicial 
Studies at the Heritage Foundation, where his research 
interests focus on issues of civil liberties and national 
security, criminal law, law enforcement, and legal ethics. Mr. 
Rosenzweig is also an adjunct professor of law at George Mason 
University School of Law. In addition, Mr. Rosenzweig serves on 
the District of Columbia Bar Legal Ethics Committee. He has 
also served as senior litigation counsel in the Office of the 
Independent Counsel and in private practice. I want to thank 
you as well.
    We thank you all for being here this afternoon. And as you 
probably know, we have a 5-minute rule. There are lights on the 
desk, and when the yellow light comes on, that gives you 1 
minute to wrap up. And we'd appreciate it if you would conclude 
close to the red light.
    We'll start with you, Mr. Dinh, and again, welcome to the 
Committee this afternoon.

 STATEMENT OF VIET D. DINH, ASSISTANT ATTORNEY GENERAL FOR THE 
         OFFICE OF LEGAL POLICY, DEPARTMENT OF JUSTICE

    Mr. Dinh. Thank you very much, Mr. Chairman. I thank you 
and the Ranking Member for having this meeting and for having 
me here. There has been much confusion, misinformation, and 
indeed sometimes disinformation about the events after 
September 11 or activities thereon, and I appreciate the 
opportunity to clear up some of the confusion.
    I fully share Mr. Nadler's call for more public 
accountability and congressional information. That is why the 
department has been cooperating with this Committee and the 
full Committee on the questions on--with respect to oversight. 
In that respect, I call the Members' attention to the 60-page 
submission that we submitted last week containing information 
regarding our activities, about which I hope to have an 
opportunity to elucidate during this hearing.
    Mr. Chairman, when the IRA failed in an attempt to 
assassinate British Prime Minister Margaret Thatcher in 1984, a 
spokesman said, ``Today we were unlucky. But remember, we only 
have to be lucky once. You will have to be lucky always.'' That 
simple statement underscored the momentous task facing the 
Government after 9/11. Even as events in Saudi Arabia and 
Morocco this past week remind us that the terrorist threat is 
real and constant, we do take some comfort that terrorists have 
not successfully attacked the American homeland since September 
11.
    In our judgment, the successful effort in preventing 
another catastrophic attack on the American homeland in the 
past 20 months would have been much more difficult, if not 
outright impossible, without the tools that Congress has 
authorized, in particular, the tools in the USA PATRIOT Act. 
These authorities have substantially enhanced our ability to 
investigate, prosecute, and most important, to prevent 
terrorist attacks. In doing so, we are constantly mindful of 
the legal and constitutional limits to governmental authority. 
We have safeguarded the constitutional rights and civil 
liberties of law-abiding Americans, just as we have protected 
them from the threat of terror. We have achieved these twin 
objectives by implementing common-sense reforms and utilizing 
the tools that Congress has provided.
    First, Congress has given us the legal authority to lower 
the artificial wall that divided the intelligence-gathering and 
law-enforcement functions of the FBI and the Department of 
Justice. Section 218 of the USA PATRIOT Act permitted the use 
of FISA authorities whenever ``a significant purpose of the 
investigation is foreign intelligence.'' This simple change has 
permitted the transformation of our counterterrorism efforts, 
from the segregation of intelligence and law enforcement to a 
culture of cooperation and coordination.
    Already this transformation has born fruit. The Department 
recently indicted Sami Al-Arian based on intelligence 
information that was previously denied to criminal 
investigators. Al-Arian is an alleged member of the Palestinian 
Islamic Jihad, which has allegedly engaged in terrorist 
killings of hundreds, including of Alisa Flatow, a young 
American killed in a bus bombing in the Middle East. At the 
direction of the Attorney General, criminal investigators in 
the Department are currently reviewing over 4,500 other 
intelligence files for information that may assist in the 
prosecution or prevention of terrorist crimes.
    This dramatic transformation of our intelligence and law-
enforcement culture comes at no cost to the civil rights and 
liberties of law-abiding citizens. Information on terrorist 
activities is collected according to established legal 
standards and its use in criminal trials is governed by the 
Constitution. Indeed, by making the most efficient use of 
information already gathered on terrorist activity, this 
transformation releases the pressure and reduces the demand for 
the Government to collect even more information.
    Second, Congress has updated the law to the technology so 
that law enforcement no longer has to fight this 21st century 
war with antique weapons. Section 216 of the USA PATRIOT Act, 
for example, clarified--as you noted, Mr. Chairman--that courts 
can authorize the use of pen register devices to capture non-
content routing and addressing information in electronic 
communications, just as they can to capture telephone numbers 
in analog telephone conversations.
    This tool has been indispensable in our counterterrorism 
efforts. For example, in the Danny Pearl investigation, agents 
were able to use section 216 to obtain information that proved 
critical to identifying some of Pearl's killers, who now stand 
convicted in a Pakistani court of murder.
    Again, Congress armed law enforcement with this powerful 
weapon without sacrificing the constitutional rights and civil 
liberties of law-abiding citizens. Of course, the Supreme Court 
has long held that non-content information is not protected by 
the Fourth Amendment, and section 216 extended this authority 
to the digital communications world by using the same legal 
predicate that existed in title III and in the analog world.
    Third, and finally, we have authorized and motivated 
investigative agents to use their common sense and best 
judgment to prevent acts of terrorism. For decades, the 
Attorney General's guidelines centralized decision making and 
segregated information collected at field offices. We reversed 
this perverse arrangement so that street agents and their 
supervisors can collect the information and, once collected, 
transmit it to headquarters for proper analysis.
    Mr. Chairman, the greatest present threat to the American 
people comes from the terrorists who seek to destroy our way of 
life. The men and women of law enforcement, instead, seek to 
protect that way of life and secure our liberty. The Department 
will continue to do everything in our power, with your help, to 
incapacitate the terrorists and to liberate the activities of 
law-abiding Americans. I thank you very much.
    [The prepared statement of Mr. Dinh follows:]
                   Prepared Statement of Viet D. Dinh
    Good afternoon, Mr. Chairman and Members of the Subcommittee. I 
appreciate the chance to testify today about the Justice Department's 
ongoing efforts to protect the lives of innocent Americans, and our 
commitment to doing so within the limits of the Fourth Amendment's 
guarantee of individual privacy. After 9/11, the Attorney General gave 
me a simple yet powerful directive: ``Think outside the box, but never 
outside of the Constitution.'' Those instructions have been the 
Department's guidepost ever since.
    In the 20 months since the atrocities of September 11, 2001, this 
Administration and Congress have worked hard to give our men and women 
in blue the tools they need to keep America safe, such as the USA 
PATRIOT Act and the revised Attorney General's investigative 
guidelines. Each of these new authorities incorporates long-settled 
precedent from the Supreme Court regarding privacy rights and other 
constitutional norms. In many cases, these new tools simply enable 
officials to use information to which other government entities already 
have access. In other instances, they give agents permission to use 
information that already is available to other members of the public.
    This afternoon, I will discuss three matters that I hope will be of 
use to the Subcommittee. First, I will trace the development of Fourth 
Amendment jurisprudence to the contemporary understanding that it 
protects individual privacy. Second, I will discuss how the USA PATRIOT 
Act gave terrorism investigators access to information that other 
government officials already possess or lawfully could possess--in 
particular, how the Act encouraged the sharing of information and 
coordination among intelligence and law-enforcement personnel; and how 
the Act enabled courts to subpoena business records in all 
investigations, not just routine criminal cases. Third, I will discuss 
how the USA PATRIOT Act and Justice Department policies have enabled 
investigators to collect information that terrorism suspects 
voluntarily have disclosed to other members of the general public--in 
particular, how the revised Attorney General's investigative guidelines 
gave law enforcement the same access to public places and information 
that all other Americans enjoy; and how the Act facilitated the 
gathering of non-private routing and addressing information about 
electronic communications.
             the fourth amendment from trespass to privacy
    Over the course of the twentieth century, the Fourth Amendment came 
to be understood as protecting certain forms of individual privacy--
what Justice Brandeis called the ``right to be let alone--the most 
comprehensive of rights and the right most valued by civilized men'' 
\1\--not just as preventing unauthorized government trespass onto 
landowners' private property.
---------------------------------------------------------------------------
    \1\ Olmstead v. United States, 277 U.S. 438, 478 (1928) (Brandeis, 
J., dissenting).
---------------------------------------------------------------------------
    The traditional ``trespass'' conception of the Fourth Amendment is 
typified by the 1928 case Olmstead v. United States.\2\ In holding that 
law enforcement did not carry out an ``unreasonable search or seizure'' 
when it conducted a warrantless telephone wiretap, the Supreme Court 
reasoned that ``[t]he evidence was secured by the use of the sense of 
hearing and that only. There was no entry of the houses or offices of 
the defendants.'' \3\ According to the Court, no trespass, no 
violation. But Olmstead also contained the seeds of a new understanding 
of the Fourth Amendment. In dissent, Justice Brandeis emphasized that 
``[s]ubtler and more far-reaching means of invading privacy have become 
available to the government. Discovery and invention have made it 
possible for the government, by means far more effective than 
stretching upon the rack, to obtain disclosure in court of what is 
whispered in the closet.'' \4\
---------------------------------------------------------------------------
    \2\ 277 U.S. 438 (1928).
    \3\ Id. at 464.
    \4\ Id. at 478 (Brandeis, J., dissenting).
---------------------------------------------------------------------------
    Less than four decades later, in Katz v. United States,\5\ the 
Supreme Court held that warrantless government wiretapping can 
constitute an unreasonable search or seizure. The Court effectively 
adopted Justice Brandeis's `privacy'' reading of the Fourth Amendment: 
``[T]he Fourth Amendment protects people, not places.'' \6\ In response 
to Katz, Congress enacted Title III of the 1968 Omnibus Crime Control 
and Safe Streets Act,\7\ which governs electronic surveillance for 
federal criminal offenses. Congress subsequently enacted the Electronic 
Communications Privacy Act (``ECPA''), which addresses government 
access to stored communications,\8\ and establishes statutory standards 
and procedures for the use of pen registers and trap and trace 
devices.\9\
---------------------------------------------------------------------------
    \5\ 389 U.S. 347 (1967).
    \6\ Id. at 351.
    \7\ 18 U.S.C. Sec. Sec. 2510-22.
    \8\ Id. Sec. Sec. 2701-12.
    \9\ Id. Sec. Sec. 3121-27.
---------------------------------------------------------------------------
    Katz left open the question what standards and procedures apply to 
government surveillance in national-security investigations.\10\ But in 
the 1972 Keith decision,\11\ the Supreme Court squarely held that the 
Fourth Amendment is applicable in domestic-security investigations:
---------------------------------------------------------------------------
    \10\ See Katz, 389 U.S. at 358 n.23 (``Whether safeguards other 
than prior authorization by a magistrate would satisfy the Fourth 
Amendment in a situation involving the national security is a question 
not presented by this case.'').
    \11\ United States v. United States District Court (``Keith''), 407 
U.S. 297 (1972).

        We recognize, as we have before, the constitutional basis of 
        the President's domestic security role, but we think it must be 
        exercised in a manner compatible with the Fourth Amendment. In 
        this case we hold that this requires an appropriate prior 
        warrant procedure.\12\
---------------------------------------------------------------------------
    \12\ Id. at 320.

At the same time, the Keith Court emphasized that different rules could 
be appropriate in national-security investigations--including cases of 
---------------------------------------------------------------------------
terrorism--than the standard procedures for criminal investigations:

        Given [the] potential distinctions between Title III criminal 
        surveillances and those involving the domestic security, 
        Congress may wish to consider protective standards for the 
        latter which differ from those already prescribed for specified 
        crimes in Title III. Different standards may be compatible with 
        the Fourth Amendment if they are reasonable both in relation to 
        the legitimate need of Government for intelligence information 
        and the protected rights of our citizens.\13\
---------------------------------------------------------------------------
    \13\ Id. at 322.

    In 1978, Congress responded to the Court's invitation by enacting 
the Foreign Intelligence Surveillance Act (``FISA'').\14\ FISA 
establishes standards applicable to surveillance of foreign powers and 
agents of foreign powers--including electronic surveillance, physical 
searches, and use of pen registers and trap and trace devices--in 
relation to the investigation of such matters as international 
terrorism and espionage.
---------------------------------------------------------------------------
    \14\ 50 U.S.C. Sec. Sec. 1801-62.
---------------------------------------------------------------------------
   facilitating information sharing and an integrated antiterrorism 
                                campaign
    One of the USA PATRIOT Act's most important innovations was the 
amendments it made to FISA, which allow national-security personnel and 
their law-enforcement counterparts to coordinate their efforts to keep 
America safe. Acts of terrorism are simultaneously criminal offenses 
and threats to our national security. Our response likewise must 
transcend the boundaries of an organizational chart.
    Before the USA PATRIOT Act, a metaphorical ``wall'' between the 
intelligence community and federal law enforcement often precluded 
vital information sharing. This wall, which derived from certain court 
decisions,\15\ was established in written Department guidelines in July 
1995. Under this interpretation, FISA could be used only if the 
``primary purpose'' of an investigation was to protect the national 
security; evidence could be gathered to prosecute a foreign terrorist 
only if that purpose was clearly secondary. While information could be 
``thrown over the wall'' from intelligence officials to prosecutors, 
the decision to do so always rested with national-security personnel--
even though law enforcement agents pursuing a criminal investigation 
are in a better position to determine what evidence is pertinent to 
their case. These legal rules created what the Foreign Intelligence 
Surveillance Court of Review has termed ``perverse organizational 
incentives,'' expressly discouraging cooperation in the fight against 
terrorism.\16\ With apologies to Robert Frost, ``[s]omething there is 
that doesn't love a wall.'' \17\
---------------------------------------------------------------------------
    \15\ See, e.g., United States v. Truong, 629 F.2d 908 (4th Cir. 
1980), cert. denied, 454 U.S. 1144 (1982).
    \16\ See In re Sealed Case, 310 F.3d 717, 743 (FISCR 2002).
    \17\ Robert Frost, Mending Wall, reprinted in The New Oxford Book 
of American Verse 395-96 (R. Ellmann ed. 1976).
---------------------------------------------------------------------------
    The USA PATRIOT Act finally permitted the coordination between 
intelligence and law enforcement that is vital to protecting the 
nation's security. Specifically, section 218 displaced the outmoded 
``primary purpose'' standard, allowing the use of FISA when a 
``significant purpose'' of an investigation is foreign intelligence. 
The Justice Department since has developed procedures to allow the use 
of certain FISA-derived information in criminal prosecutions. And on 
November 18, 2002 the FISA Court of Review held that these procedures 
are consistent with the Fourth Amendment, reasoning ``that FISA as 
amended is constitutional because the surveillances it authorizes are 
reasonable.'' \18\
---------------------------------------------------------------------------
    \18\ Id. at 746.
---------------------------------------------------------------------------
    Both before and since the Court of Review's decision, the Justice 
Department has fostered extensive cooperation among national-security 
and law-enforcement personnel. The Attorney General instructed all 
United States Attorneys to review their intelligence files, with the 
intent of discovering whether there was a basis to bring criminal 
charges against the subjects of intelligence investigations. On October 
1, 2002, the Attorney General directed every U.S. Attorney to develop a 
plan to monitor terrorism and intelligence investigations, and to 
ensure that information about terrorist threats is shared with other 
agencies and that criminal charges are considered. Almost 4,500 
intelligence files have been reviewed as part of this process, and 
information from this review has been incorporated in numerous cases.
    The USA PATRIOT Act's revisions to FISA already are producing 
important dividends in the war on terror. Department of Justice 
prosecutors recently were able to obtain the indictment of Sami al-
Arian, an alleged member of a Palestinian Islamic Jihad (PIJ) cell in 
Tampa, Florida. PIJ is alleged to be one of the world's most violent 
terrorist outfits, and is responsible for murdering over 100 innocent 
people, including Alisa Flatow, a young American killed in a bus 
bombing near the Israeli settlement of Kfar Darom. Section 218 of the 
USA PATRIOT Act, as well as the Department's implementing rules, 
enabled criminal investigators finally to obtain and consider 
systematically the full range of evidence of the PIJ operations in 
which al-Arian allegedly participated.
   enabling courts to subpoena records in all types of investigations
    In the same way that national-security officers must be allowed to 
coordinate their antiterrorism efforts with law-enforcement personnel, 
the Department firmly believes that terrorism investigators must be 
able to use the same tools available in routine criminal 
investigations. For that reason, section 215 of the USA PATRIOT Act 
authorized courts in terrorism and national-security cases to subpoena 
business records--which have long been available in ordinary criminal 
investigations.
    For years, grand juries investigating ordinary crimes have been 
able to issue subpoenas to all manner of businesses. In the 1997 Gianni 
Versace murder investigation, a Florida grand jury subpoenaed records 
from public libraries in Miami Beach.\19\ In the Unabomber case during 
the mid-1990s, federal grand juries reportedly wanted to learn who had 
checked out the four books cited in the ``Unabomber Manifesto,'' and 
therefore subpoenaed records from a number of university libraries on 
the west coast.\20\ And in the 1990 Zodiac gunman investigation, a 
grand jury in New York subpoenaed records from a public library in an 
effort to learn who had checked out books written by a Scottish occult 
poet believed to be the gunman's inspiration.\21\
---------------------------------------------------------------------------
    \19\ See Lydia Martin, Agents Seek Cunanan Link to Missing Library 
Book, Miami Herald, July 24, 1997, at A19.
    \20\ See Gary Marx and Peter Kendall, Unabomber Path Leads back to 
Utah, Chicago Tribune, Sept. 25, 1995, at 1.
    \21\ See Library Files Checked In Zodiac Investigation, N.Y. Times, 
July 18, 1990, at B4.
---------------------------------------------------------------------------
    Section 215 simply authorized the FISA court to issue similar 
orders in national security investigations. These judicial orders 
conceivably could issue to bookstores or libraries but section 215 
certainly does not single them out. The words ``library'' and 
``bookstore'' appear nowhere in the USA PATRIOT Act. Nevertheless, 
libraries and bookstores should not be allowed to become safe havens 
for terrorists.
    Moreover, the USA PATRIOT Act goes to great lengths to protect the 
privacy rights of libraries, other affected entities, and their 
patrons. First, the FBI cannot obtain records under section 215 unless 
it receives a court order. Agents cannot unilaterally force people to 
turn over any information; they must appear before a court and convince 
it that they need the records.\22\ Second, section 215 has an extremely 
narrow scope. It can only be used in international terrorism and 
espionage investigations; it is not available to investigate ordinary 
crimes, or even domestic terrorism.\23\ Third, section 215 expressly 
protects the First Amendment, banning the FBI from using the exercise 
of First Amendment rights as a pretext for seeking records.\24\ Fourth, 
and finally, section 215 provides for thorough congressional oversight. 
Every six months, the Attorney General is required to ``fully inform'' 
Congress on how it is being used.\25\ The Justice Department furnished 
Congress with the required information most recently on December 31, 
2002.
---------------------------------------------------------------------------
    \22\ See 50 U.S.C. Sec. 1861(b)(1), (c)(1).
    \23\ See id. Sec. 1861(b)(2).
    \24\ See id. Sec. 1861(a)(1), (a)(2)(B).
    \25\ Id. Sec. 1862.
---------------------------------------------------------------------------
      allowing law enforcement equal access to public information
    FBI agents should have the same access to public places, events, 
and information that all other members of the general public enjoy. If 
terrorists open their meetings to the public, FBI agents ought to be 
able to accept the invitation. And if a child can use the internet to 
look up information that is relevant to potential terrorist activity, 
the FBI should be able to do the same. The revised Attorney General's 
investigative guidelines eliminated these counterproductive 
restrictions that prevented federal law enforcement from collecting 
information that was already in the public domain.
    Under the old guidelines, there was no clear authority for agents 
to attend events held open to the general public--for example, 
meetings, speeches, and demonstrations--unless they already had 
obtained evidence that some sort of criminal activity was afoot. The 
old guidelines likewise generally barred the FBI from accessing 
publicly available information on the internet except when 
investigating a specific case. Thus, for example, during the fall 2001 
anthrax investigation, an FBI agent might have been able to log on to 
an internet site to gather information about anthrax--but could not 
have accessed the same web page to gather information about another 
biotoxin such as smallpox.
    The revised guidelines, issued in May 2002, represent a significant 
step forward in the war on terrorism. These new rules make explicit 
that an FBI agent may visit any public place to which members of the 
general public are invited, unless the Constitution or a federal law 
prohibits them from doing so, for the specific purpose of detecting or 
preventing terrorism:

        For the purpose of detecting or preventing terrorist 
        activities, the FBI is authorized to visit any place and attend 
        any event that is open to the public, on the same terms and 
        conditions as members of the public generally. No information 
        obtained from such visits shall be retained unless it relates 
        to potential criminal or terrorist activity.\26\
---------------------------------------------------------------------------
    \26\ The Attorney General's Guidelines on General Crimes, 
Racketeering Enterprise and Terrorism Enterprise Investigations, Part 
VI.A.2.

The guidelines also strengthen the FBI's intelligence-gathering 
capabilities by making plain that agents may access public information 
online, even when not linked to a particular criminal investigation, 
---------------------------------------------------------------------------
for the purpose of detecting or preventing terrorism:

        The FBI is authorized to carry out general topical research, 
        including conducting online searches and accessing online sites 
        and forums as part of such research on the same terms and 
        conditions as members of the public generally.\27\
---------------------------------------------------------------------------
    \27\ Id. Part VI.B.1.

        For the purpose of detecting or preventing terrorism or other 
        criminal activities, the FBI is authorized to conduct online 
        search activity and to access online sites and forums on the 
        same terms and conditions as members of the public 
        generally.\28\
---------------------------------------------------------------------------
    \28\ Id. Part VI.B.2.

    The new guidelines contain a number of safeguards designed to 
preserve First Amendment, Fourth Amendment, and other constitutional 
norms. First, FBI agents may visit a public event or conduct internet 
research under the new authorizations only ``on the same terms and 
conditions as members of the public generally.'' \29\ Next, agents may 
conduct such visits only for a single, narrow purpose: ``detecting or 
preventing terrorist activities.'' \30\ Third, agents are expressly 
prohibited from keeping any information from these visits ``unless it 
relates to potential criminal or terrorist activity.'' \31\ Fourth, 
agents may not use these new authorities to keep files on people on the 
basis of their constitutionally protected activities.\32\ Next, the 
guidelines stress that investigative activities may not be based solely 
on persons' exercise of their legal rights.\33\ Sixth, and finally, the 
guidelines specifically order agents to comply with all relevant laws, 
including the Constitution, when conducting all investigations \34\
---------------------------------------------------------------------------
    \29\ Id. Part VI.A.2; id. Part VI.B.2.
    \30\ Id. Part VI.A.2
    \31\ Id.
    \32\ Id. Part VI.C.1
    \33\ Id. Part I.
    \34\ Id. Introduction, Sec. C.
---------------------------------------------------------------------------
    The revised Attorney General's guidelines fit comfortably within 
the Supreme Court's long-settled jurisprudence that there is no 
reasonable expectation of privacy in information voluntarily turned 
over to third parties. In fact, the Supreme Court has already held that 
government observation of public places is consistent with the First 
and Fourth Amendments. In Laird v. Tatum,\35\ the Court held that the 
Army did not unconstitutionally ``chill'' the plaintiffs' exercise of 
their First Amendment rights by collecting publicly available 
information about potential insurrections and other civil disturbances. 
The Court found especially significant the fact that the Army gathered 
information from ``the news media and publications in general 
circulation,'' as well as from ``agents who attended meetings that were 
open to the public.'' \36\ As is true under the new guidelines, ``the 
information gathered is nothing more than a good newspaper reporter 
would be able to gather by attendance at public meetings and the 
clipping of articles from publications available on any newsstand.'' 
\37\
---------------------------------------------------------------------------
    \35\ 408 U.S. 1, 6 (1972).
    \36\ Id. at 6.
    \37\ Id. at 9 (citation omitted).
---------------------------------------------------------------------------
       enabling the collection of non-private information about 
                        internet communications
    Courts must be able to allow law enforcement to track the 
communications of terrorists regardless of which medium they choose to 
use. No one type of communication should be beyond the reach of court-
approved, and Fourth Amendment sanctioned, surveillance. That is why 
section 216 of the USA PATRIOT Act has proven to be one of the most 
vital new authorities in the war on terrorism. Section 216 clarified 
that courts can authorize the use of ``pen registers'' and ``trap and 
trace devices''--which track the numbers a particular telephone dials 
or receives--to obtain the same sort of routing and addressing 
information about internet communications. By law, pen/trap devices 
cannot be used to collect the content of communications.
    Almost a quarter of a century ago, the Supreme Court squarely held, 
in the context of telephone surveillance, that the use of pen/trap 
devices does not constitute a ``search'' within the meaning of the 
Fourth Amendment. This is so because ``a person has no legitimate 
expectation of privacy in information he voluntarily turns over to 
third parties,'' and ``when he used his phone, petitioner voluntarily 
conveyed numerical information to the telephone company.'' \38\ The 
same is true of internet communications, in which routing and 
addressing information is voluntarily disclosed to internet service 
providers. As a result, nothing in the Constitution requires law 
enforcement to establish probable cause, or obtain a court order, 
before using a pen/trap device. (Congress, by statute, has established 
procedural requirements that exceed those imposed by the Fourth 
Amendment.\39\)
---------------------------------------------------------------------------
    \38\ Smith v. Maryland, 442 U.S. 735, 744 (1979).
    \39\ See 18 U.S.C. Sec. Sec. 3121-27.
---------------------------------------------------------------------------
    Since the USA PATRIOT Act became law in October 2001, Justice 
Department field investigators and prosecutors have used the amended 
pen/trap statute in a number of terrorism and other criminal cases. 
Section 216 was used in the investigation of the murder of Wall Street 
Journal reported Daniel Pearl, to obtain information that proved 
critical to identifying some of the perpetrators. It also has been used 
to collect routing information about the internet communications of (1) 
terrorist conspirators; (2) at least one major drug distributor; (3) 
thieves who obtained victims' bank account information and stole the 
money; (4) a four-time murderer; and (5) a fugitive who fled on the eve 
of trial using a fake passport.
    Section 216 has proven as effective at safeguarding Fourth 
Amendment values as it has at bringing terrorists to justice. The USA 
PATRIOT Act preserved all pre-existing statutory standards: now, as 
before, law enforcement must get court approval before installing a pen 
register.\40\ And now, as before, law enforcement must show that the 
information sought is relevant to an ongoing investigation.\41\
---------------------------------------------------------------------------
    \40\ See id. Sec. 3123(a)(1).
    \41\ See id. Sec. 3122(b)(2).
---------------------------------------------------------------------------
    In fact, the USA PATRIOT Act's revisions to the pen/trap statute 
actually have enhanced privacy protections. The Act made explicit what 
was already implicit in the prior provision, namely, that an agency 
deploying a pen/trap has an affirmative obligation to use ``technology 
reasonably available to it'' that restricts the information obtained 
``so as not to include the contents of any wire or electronic 
communications.'' \42\ The Act also made explicit that a pen/trap is 
not to be viewed as an affirmative authorization for the interception 
of content: ``such information shall not include the contents of any 
communication.'' \43\
---------------------------------------------------------------------------
    \42\ Id. Sec. 3123(c).
    \43\ Id. Sec. 3127(3).
---------------------------------------------------------------------------
    The Justice Department is committed to complying with the USA 
PATRIOT Act's mandate that law enforcement not use pen registers to 
capture the content of communications. On May 24, 2002, the Deputy 
Attorney General issued a memorandum to field offices instructing them 
on how to prevent ``overcollection''--i.e., the inadvertent gathering 
of communication content--when using pen/trap devices. In particular, 
he ordered that:

        (1)  law enforcement must ``operate a pen register or trap and 
        trace device in a.manner that, to the extent feasible with 
        reasonably available technology, will minimize any possible 
        overcollection while still allowing the device to collect all 
        of the limited information authorized'';

        (2)  if ``an agency's deployment of a pen register does result 
        in the incidental collection of some portion of `content,' it 
        is the policy of this Department that such `content' may not be 
        used for any affirmative investigative purpose, except in a 
        rare case in order to prevent an immediate danger of death, 
        serious physical injury, or harm to the national security''; 
        and

        (3)  ``The Assistant Attorney General for the Criminal Division 
        (AAG) should ensure that the Criminal Division provides 
        appropriate guidance, through amendments to the United States 
        Attorneys' Manual or otherwise, with respect to any significant 
        general issues concerning what constitutes the `content' of a 
        communication.'' \44\
---------------------------------------------------------------------------
    \44\ Memorandum from Deputy Attorney General Larry D. Thompson Re: 
Avoiding Collection and Investigative Use of ``Content'' in the 
Operation of Pen Registers and Trap and Trace Devices, at 4-5 (May 24, 
2002).

    The Deputy Attorney General's directive will help guarantee 
effective implementation of section 216, while protecting the privacy 
of internet users by ensuring that only addressing information--and not 
the content of their communications--is collected and used.
    The Justice Department's mission since the September 11 terrorist 
attacks has been as clear as it is essential: preserving the lives of 
innocent Americans along with the constitutional rights and liberties 
that make us as a people the envy of the world. In particular, we have 
dedicated ourselves to ensuring that all efforts to gather information 
about potential deadly terrorist attacks comply with the strictures of 
the Fourth Amendment's guarantee of individual privacy. Together with 
Congress, we have given investigators access to terrorism-related 
information that other governmental entities already have acquired, or 
lawfully could acquire. And we have enabled law enforcement to make use 
of information that can be retrieved by anyone in the public domain.
    On behalf of the Administration, I thank you for your commitment to 
keeping America both safe and free, and we look forward to continuing 
our partnership. I would be happy to answer any questions that you may 
have.

    Mr. Chabot. Thank you. Mr. Dempsey?
    You have to hit the button there.

 STATEMENT OF JAMES X. DEMPSEY, EXECUTIVE DIRECTOR, THE CENTER 
                  FOR DEMOCRACY AND TECHNOLOGY

    Mr. Dempsey. Thank you, Mr. Chairman. Good afternoon, Mr. 
Nadler, Members of the Subcommittee. Thank you for giving us 
the opportunity to testify today at this very important 
hearing. We commend Members of this Subcommittee and Chairman 
Sensenbrenner and Mr. Conyers for the oversight that you have 
been pursuing into the application of the PATRIOT Act. This 
hearing is clearly just one step in that process.
    I think that the answers to the questions that were 
submitted by the Justice Department--we just received them 
today, 69 pages--are another step. I'll say that in quickly 
looking at some of those, I have to say that some of them were 
not entirely clear answers and they raise additional questions, 
which, naturally, this Subcommittee and the full Committee will 
have to follow up on. We also received just today a 100-page 
report submitted by the Department of Defense in response to 
the Wyden-Grassley amendment on Total Information Awareness and 
data mining. So that's another form of congressional oversight 
that's now available to the public to help us understand how 
effective our laws are and their impact on civil liberties.
    Undoubtedly, terrorism poses an imminent and grave threat 
to our society, and our Government needs the tools to fight 
this. But those tools need to be subject to checks and 
balances. They must be exercised with a focus on potential 
violence. They must be guided by the particularized suspicion 
requirement of the Fourth Amendment, which prohibits blanket 
searches. And they must be subject to executive, legislative, 
and judicial controls.
    Yet before the PATRIOT Act, before 9/11, in our view, some 
of those checks and balances were weak and some of those 
controls were lacking. And the PATRIOT Act and other Executive 
Branch actions taken since then have brought us into a 
situation where the Government's powers are not well guided. 
And I think that is a problem both from an effectiveness 
standpoint, from a--from the standpoint of making us safer, as 
well as from the standpoint of constitutional rights.
    I want to highlight just a few items and then respond to 
your more detailed questions. Specifically on the question of 
libraries, which Mr. Nadler raised, libraries are not a law-
free zone. They should not be a haven for terrorists. They 
never were. The question has always been what is the standard 
that the Government needs to follow in order to get information 
from a library or from other--any other entity. And in the 
PATRIOT Act, really, the standards that had been in place, 
which required some reason to believe that there was some 
connection with terrorism and some minimal factual showing, 
some relationship to an individual, those standards were 
eliminated. And now, the so-called section 215 of the PATRIOT 
Act and the so-called national security letter authorities, at 
least to my reading, seem to allow the Government to get entire 
databases--not to go in and ask for the books that a terrorist 
has read, but to ask for the books that everybody has read--or 
the suspected terrorists, but to ask for the books read by 
everybody.
    Assistant Attorney General Dinh has mentioned the changes 
to the Foreign Intelligence Surveillance Act. We are now going 
to be seeing more information acquired under FISA used in 
criminal cases, and in many respects that's appropriate. But 
when that information is used, it should be subject to the 
normal criminal due process rules. And right now, defendants 
facing FISA evidence in court do not enjoy the same rights that 
a defendant normally enjoys in dealing with wiretap information 
collected under the title 3 criminal wiretap law.
    The pen register trap and trace statute, the statute that 
allows the collection of transactional information--dialed 
number information or e-mail addressing information--perfectly 
appropriate that the Government should have laws that keep up 
with the technology to acquire that information when justified, 
but the law as it now stands really doesn't have any standards 
in it. It says that Government can get one of those orders just 
upon the certification of a prosecutor that it is relevant to 
an ongoing investigation. No factual inquiry at all by the 
judge. The judge, really, just becomes a rubber stamp. That 
information is good, it's useful, but it should be subject to 
standards.
    Similarly, there should be tighter standards on the use of 
secret searches which were authorized in the PATRIOT Act. The 
whole question of data mining, which is now a major subject in 
the news, we just don't have the laws that are applicable to 
that. The Privacy Act doesn't apply and other laws do not 
apply.
    So we really need to put these protections in place, and if 
we do, I believe that they actually do not limit 
counterterrorism effectiveness. These are things that help 
guide it and focus it and make it more effective. And I think 
we can do that in a way that makes us safer without sacrificing 
civil liberties.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dempsey follows:]
                 Prepared Statement of James X. Dempsey
    Mr. Chairman, Mr. Nadler, Members of the Subcommittee, thank you 
for the opportunity to testify today at this important hearing. We 
commend Chairman Sensenbrenner and Mr. Conyers and you, Chairman Chabot 
and Mr. Nadler, for the oversight you are conducting of the 
effectiveness of the nation's counter-terrorism laws and their 
implications for civil liberties. The Center for Democracy and 
Technology \1\ urges you to continue this process, and we look forward 
to being of assistance to you however we can. In my testimony today, I 
make specific suggestions for further avenues of oversight.
---------------------------------------------------------------------------
    \1\ The Center for Democracy and Technology is a non-profit, public 
interest organization dedicated to promoting civil liberties and 
democratic values for the new digital communications media. Our core 
goals include enhancing privacy protections and preserving the open 
architecture of the Internet. Among other activities, CDT coordinates 
the Digital Privacy and Security Working Group (DPSWG), a forum for 
computer, communications, and public interest organizations, companies 
and associations interested in information privacy and security issues.
---------------------------------------------------------------------------
                               i. summary
    The main points I wish to make today are these: The threat 
terrorism poses to our nation is imminent and grave. The government 
must be provided with strong legal authorities to prevent terrorism to 
the greatest extent possible and to punish it when it occurs. These 
authorities must include the ability to infiltrate organizations, 
collect information from public and private sources, and carry out 
wiretaps and other forms of electronic surveillance. These legal 
powers, however, must be subject to checks and balances; they must be 
exercised with a focus on potential violence, guided by the 
particularized suspicion principle of the Fourth Amendment, and subject 
to Executive, legislative and judicial controls. Yet the checks and 
balances, weak in some key respects before 9/11, have been seriously 
eroded by the PATRIOT Act and Executive Branch actions. Prior to 9/11, 
the government had awesome powers but failed to use them well. Those 
failures had little if anything to do with the rules established to 
protect privacy. The changes in the PATRIOT Act were hastily enacted--
mistakes were made that Congress should rectify, by reasserting 
standards and checks and balances and by practicing ongoing, 
nonpartisan, detailed oversight, starting with close scrutiny of the 
government's claims that the PATRIOT Act changes have been vital to 
recent successes.
    In response to the specific question posed by the title of this 
hearing, my central point is that, both before 9/11 and now, the 
government had and still has authority to go anywhere and collect any 
information to prevent terrorist attacks. Before 9/11, the exercise of 
that authority domestically was controlled and focused--the government 
had to have some minimal basis to suspect that some criminal conduct 
was being planned or that there was some minimal connection with a 
foreign terrorist group. Under the changes that have been made since 9/
11, the FBI is authorized by the Attorney General to go looking for 
information about individuals with no reason to believe they are 
engaged in, or planning, or connected to any wrongdoing. Before 9/11, 
mosques and political events were not off-limits and the FBI did go 
into religious and political gatherings to collect information--where 
it had some minimal reason for believing that there was some connection 
between that mosque or political meeting and terrorism. Now, FBI agents 
can apparently wander down the street and visit mosques or political 
meetings like anyone else--on a whim. Before 9/11, the FBI was not 
prohibited from use of commercial databases. But under the PATRIOT Act 
and other laws, the FBI may have the authority to scoop up entire 
databases of information, including data on persons suspected of no 
wrongdoing. Our laws are totally inadequate to deal with the reality of 
decentralized commercial databases and the new techniques of data 
mining.
    Both before 9/11 and today, the only question has ever been one of 
standards, checks and balances and procedures. With the changes adopted 
since 9/11, domestic law enforcement and intelligence agencies have 
fewer standards to guide them and are subject to less oversight and 
accountability to check up on their performance. The result, I fear, is 
unfocused investigative activity that is bad for security and bad for 
civil liberties.
    I will concentrate today on the surveillance issues that I 
understand are the Subcommittee's main interest, but for purposes of 
context, I must briefly mention that some of the greatest abuses of 
civil liberties since 9/11 do not flow from the PATRIOT Act and have 
not been the subject of Congressional authorization or scrutiny, 
including:

        <bullet>  secret arrests of hundreds and maybe more than 1000 
        people;

        <bullet>  the detention of many of those for days, weeks or 
        even longer without charges, even though Congress had set a 7 
        day limit even for non-citizens detained as suspected 
        terrorists;

        <bullet>  abuse of the material witness statute to hold people 
        without charges;

        <bullet>  the blanket closing of deportation hearings;

        <bullet>  the indefinite detention of two American citizens in 
        military prisons without criminal charges;

        <bullet>  selective targeting of immigrants for enforcement 
        based on their religion.\2\
---------------------------------------------------------------------------
    \2\ Many of these abuses are detailed in the report of the Lawyers 
Committee for Human Rights, ``Imbalance of Powers: How Changes to U.S. 
Law and Policy since 9/11 Erode Human Rights and Civil Liberties,'' 
[PDF] March 11, 2003, online at http://www.lchr.org/us--law/loss/
imbalance/powers.pdf.
---------------------------------------------------------------------------
ii. u.s. v. miller and the dragnet approach of section 215 and national 
                            security letters
    In the 1970s, the Supreme Court issued a series of momentous 
decisions holding that citizens lose their constitutional rights in 
information provided to third parties in the course of commercial 
transactions. United States v. Miller, 425 U.S. 435 (1976), held that 
there is no constitutional privacy interest in the records held by 
banks showing who has paid you money, to whom you have paid money, 
amounts, dates, etc. Smith v. Maryland, 442 U.S. 735 (1979), held that 
telephone users have no constitutional privacy interest in the 
transactional information that shows who is calling them, whom they are 
calling, when, how often and for how long. Fast forward through the 
digital revolution, and the ``business records'' exception has become a 
gaping hole in the Fourth Amendment. Under current law, you have no 
constitutional privacy right in any of the data you generate as you go 
about your daily life, using credit cards, building access cards, or 
Easy Passes, making travel plans, or buying things. Taken together, the 
transactional data generated every time you dial your telephone, write 
a check, send an email, or go to the doctor can provide a full picture 
of your life, your work, your interests and your associations, but it 
is, under current law, constitutionally unprotected.
    The PATRIOT Act exploited this situation, granting broad 
authorities beyond anything contemplated in U.S. v. Miller or Smith v. 
Maryland. Section 215 of the Act amended the Foreign Intelligence 
Surveillance Act to authorize the government to obtain a court order 
from the FISA court or designated magistrates to seize ``any tangible 
things (including books, records, papers, documents, and other items)'' 
that an FBI agent claims are ``sought for'' an authorized investigation 
``to protect against international terrorism or clandestine 
intelligence activities.'' The subject of the order need not be 
suspected of any criminal wrongdoing whatsoever; indeed, if the statute 
is read literally, the order need not name any particular person but 
may encompass entire collections of data related to many individuals. 
Section 505 of the PATRIOT Act similarly expanded the government's 
power to obtain telephone and email transactional records, credit 
reports and financial data with the use of a document called the 
National Security Letter (NSL), which is issued by FBI officials 
without judicial approval.\3\ Sections 507 and 508 granted authority to 
the Attorney General or his designee to obtain a court record for 
disclosure of education records.
---------------------------------------------------------------------------
    \3\ CDT has prepared a detailed memo on data mining, which 
discusses Section 215 and the NSLs: ``Privacy's Gap: The Largely Non-
Existent Legal Framework for Government Mining of Commercial Data,'' 
May 19, 2003, available online at http://www.cdt.org.
---------------------------------------------------------------------------
    In the past, the government could obtain a person's records from a 
bank, credit bureau, telephone company, hospital, or library in the 
course of a criminal investigation. In addition, prior to the PATRIOT 
Act, in international terrorism investigations, the FBI had the power 
to compel disclosure of credit, financial and communications records 
with National Security Letters and travel records under the predecessor 
of Section 215. However, Congress had set a straightforward and 
relatively low standard that required some factual predicate and 
particularized focus: the government had to have reason to believe that 
the records being sought pertained to an ``agent of a foreign power''--
an intelligence officer, for example, or a member of an international 
terrorist organization. Reason to believe is a very low standard, much 
lower than probable cause.
    The PATRIOT Act eliminated both the ``agent of a foreign power'' 
standard and the reason to believe standard, giving the FBI access with 
National Security Letters to specific categories of records in 
intelligence investigations with no factual basis to believe that the 
records pertained to a possible terrorist. And Section 215 created a 
massive catch-all provision that gave the FBI the ability to compel 
anyone to disclose any record or tangible thing that the FBI claims is 
``sought in connection with'' an investigation of international 
terrorism or ``clandestine intelligence activities,'' even if the 
record does not pertain to a suspected spy or international terrorist.
    The implications of this change are enormous. Previously, the FBI 
could get the credit card records of anyone suspected of being a 
foreign agent. Under the PATRIOT Act, broadly read, the FBI can get the 
entire database of the credit card company. Under prior law, the FBI 
could get library borrowing records only with a subpoena in a criminal 
investigation, and generally had to ask for the records of a specific 
patron. Under the PATRIOT Act, broadly read, the FBI can go into a 
public library and ask for the records on everybody who ever used the 
library, or who used it on a certain day, or who checked out certain 
kinds of books. It can do the same at any bank, telephone company, 
hotel or motel, hospital, or university--merely upon the claim that the 
information is ``sought for'' an investigation to protect against 
international terrorism or clandestine intelligence activities.
    How these provisions are actually being applied is the subject of 
great uncertainty, at least as far as one can tell from the public 
discussion to date. The DOJ and the FBI could be much more forthcoming, 
for example, about what they are doing in libraries. Up to now, the 
ambiguous statements of FBI officials have only fanned suspicion and 
distrust.
    Congress should closely inquire into the DOJ's interpretation of 
Section 215 and the National Security Letter authorities. The DOJ and 
FBI have never actually said how they are interpreting Section 215 and 
the new NSL authorities. The further questions submitted by Chairman 
Sensenbrenner on April 1, 2003 are a good start, but the Committee 
should also ask: Is the DOJ interpreting and using Section 215 and the 
NSL authorities to obtain access to entire databases, i.e., without 
naming individuals to whom the records pertain? If not, why shouldn't 
the statute be revised to clarify the particularized suspicion 
standard?
    I have heard it argued that these changes merely conform the 
intelligence standard to the criminal standard, since investigators in 
criminal cases can obtain anything with a subpoena issued on a 
relevance standard. First of all, the standard in Section 215 and two 
of the three NSL statutes is less than relevance--it is ``sought for.'' 
Second, a criminal case is at least cabined by the criminal code--
something is relevant only if it relates to the commission of a crime. 
But on the intelligence side, the government need not be investigating 
crimes--at least for non-U.S. persons, it can investigate purely legal 
activities by those suspected of being agents of foreign powers. The 
standard for opening an investigation is far less than probable cause, 
and once an investigation is opened, under the PATRIOT Act changes, an 
agent can get anything from anyone by say ``I am seeking this in 
connection with an open investigation.''
    Moreover, there are other crucial protections applicable to 
criminal subpoenas that are not available under Section 215 and the 
NSLs. For one, third party recipients of criminal subpoenas can notify 
the record subject, either immediately or after a required delay. 
Section 215 and the NSLs prohibit the recipient of a disclosure order 
from ever telling the record subject, which means that the person whose 
privacy has been invaded never has a chance to rectify any mistake or 
seek redress for any abuse. Secondly, the protections of the criminal 
justice system provide an opportunity for persons to assert their 
rights and protect their privacy, but those adversarial processes are 
not available in intelligence investigations that do not end up in 
criminal charges.
    I look forward to the day when Smith v. Maryland and U.S. v. Miller 
are placed in the same category as the discredited Olmstead decision of 
1928--decisions based on an unduly cramped understanding of privacy, 
unsuited to changing technology. Kyllo v. United States, 533 U.S. 27 
(2001), the case requiring a warrant for infrared searches of homes, 
showed that the Supreme Court is sensitive to ensuring that changes in 
technology do not render privacy. Meanwhile, Congress should 
statutorily re-establish the requirement of particularized suspicion 
and require some factual showing on the part of government officials 
seeking access to records.
iii. the need for close congressional scutiny of the effectiveness and 
privacy implications of data mining and establishment of guidelines for 
                   any application of the technology
    One important avenue of oversight for this Committee is how the FBI 
intends to use the technique known as data mining, which purports to be 
able to find evidence of possible terrorist preparations by scanning 
billions of everyday transactions, potentially including a vast array 
of information about Americans' personal lives such as medical 
information, travel records and credit card and financial data. The 
FBI's Trilogy project includes plans for data mining. According to an 
undated FBI presentation obtained by the Electronic Privacy Information 
Center, the FBI's use of ``public source'' information (including 
proprietary commercial databases) has grown 9,600% since 1992.\4\
---------------------------------------------------------------------------
    \4\ http://www.epic.org/privacy/publicrecords/cpfbippt.pdf.
---------------------------------------------------------------------------
    Two kinds of questions must be asked about data mining. First, is 
the technique likely to be effective? Secondly, assuming it can be 
shown to be effective, what should be the rules governing it? This 
week, the Defense Department will be releasing a report on the Total 
Information Awareness (``TIA'') project at the Pentagon's Defense 
Advanced Research Projects Agency (``DARPA''), which hopefully will 
illuminate some of these issues. Among the questions to be asked 
specifically of the FBI is how the PATRIOT Act authorities discussed 
above and the changes in the FBI guidelines discussed below might 
relate to its data mining plans.
    Current laws place few constraints on the government's ability to 
access information for terrorism-related data mining. Under existing 
law, the government can ask for, purchase or demand access to most 
private sector data. Unaddressed are a host of questions: Who should 
approve the patterns that are the basis for scans of private databases 
and under what standard? What should be the legal rules limiting 
disclosure to the government of the identity of those whose data fits a 
pattern? When the government draws conclusions based on pattern 
analysis, how should those conclusions be interpreted? How should they 
be disseminated and when can they be acted upon?
    Adapting the Privacy Act to government uses of commercial databases 
is one way to look at setting guidelines for data mining. But some of 
the principles are simply inapplicable and others need to have greater 
emphasis. For example, perhaps one of the most important elements of 
guidelines for data mining would be rules on the interpretation and 
dissemination of hits and on how information generated by computerized 
scans can be used. Can it be used to conduct a more intensive search of 
someone seeking to board an airplane, to keep a person off an airplane, 
to deny a person access to a government building, to deny a person a 
job? What due process rights should be afforded when adverse actions 
are taken against individuals based on some pattern identified by a 
computer program? Can ongoing audits and evaluation mechanisms assess 
the effectiveness of particular applications of the technology and 
prevent abuse?
    All of these questions must be answered before moving forward with 
implementation. Congress should limit the implementation of data mining 
until effectiveness has been shown and guidelines on collection, use, 
disclosure and retention have been adopted following appropriate 
consultation and comment.
  iv. the fbi guidelines: impact on civil liberties and security--the 
  need for congressional oversight and re-establishment of meaningful 
                                 limits
    On May 30, 2002, Attorney General John Ashcroft issued revised 
Guidelines on General Crimes, Racketeering Enterprise and Terrorism 
Enterprise Investigations (``Domestic Guidelines''). The Attorney 
General claimed that the changes were necessary to free the FBI from 
unnecessary constraints in the fight against international terrorism. 
Yet the guidelines the Attorney General changed were not applicable to 
international terrorism. And the types of things the Attorney General 
said he wanted to permit--visiting mosques, surfing the Net--were never 
prohibited under the old guidelines.
    The FBI is subject to two sets of guidelines, a classified set for 
foreign intelligence and international terrorism investigations 
(``International Terrorism Guidelines''), and an unclassified set on 
general crimes, racketeering and domestic terrorism.\5\ Last year, the 
Attorney General changed the Domestic Guidelines. He has not yet 
changed the International Guidelines, which relate to investigations of 
Osama bin Laden and Al Qaeda. (The Department of Justice may be 
reviewing the International Guidelines. This Committee should find out 
what is going on and insist on being fully consulted.) The 
International Terrorism Guidelines in some ways give the FBI even more 
latitude than the domestic guidelines. The irony is that the FBI's 
failed investigations of the Osama bin Laden group were conducted under 
those looser guidelines, reinforcing the conclusion that the problem 
before 9/11 was not the limits imposed by law or policy but the failure 
of the FBI to use the authority and information it already had.
---------------------------------------------------------------------------
    \5\ The old domestic guidelines are at http://www.usdoj.gov/ag/
readingroom/generalcrimea.htm. A heavily redacted copy of the 
international guidelines can be downloaded in PDF from http://
www.usdoj.gov/ag/readingroom/terrorismintel2.pdf. Both sets of 
guidelines relate to investigations in the United States. The 
difference between the two sets of guidelines has to do with the nature 
of the organization being investigated. The foreign guidelines govern 
investigations inside the United States of international terrorism 
organizations (such as al Qaeda or Hamas), groups that originate abroad 
but carry out activities in the U.S., and their agents. In the past, 
the domestic guidelines governed investigations of terrorist groups 
that originate in the U.S.--e.g., white supremacists and animal rights 
activists.
---------------------------------------------------------------------------
--The Role of Congress
    In the 1960s, the FBI conducted wide-ranging investigations and 
neutralization efforts against non-violent activity across the 
political spectrum. While there were acts of violence being carried out 
on America's streets, the FBI's COINTELPRO program and related efforts 
focused on politics. The exercise was essentially worthless from a 
security standpoint: it produced no advanced warning of any violent 
activity. By the mid-70s, there was a reaction against this approach, 
within the Justice Department, the FBI itself, the Congress and the 
public at large. Internal and external investigations of the abuses led 
to the adoption of guidelines by Attorney General Edward Levi, which 
set standards for FBI ``domestic security'' investigations.
    The initial issuance and subsequent major revisions of the FBI 
Guidelines were undertaken in conjunction with Congressional 
consultation and oversight. In effect, the Guidelines had a ``quasi-
legislative'' status. Indeed, the Guidelines were adopted in lieu of 
legislation. A major debate in the 1970s was over the framing of a 
statutory charter for the FBI. (The CIA has a legislative charter; the 
FBI does not.) After Attorney General Levi issued the guidelines, 
Congress dropped the push for a legislative charter, based on two 
grounds: (i) Executive Branch claims that the guidelines embodied all 
the protections that would be included in a charter but did so with 
greater detail, providing just the right mix of guidance and 
flexibility to the FBI, and (ii) the understanding that Guideline 
changes would be subject to prior Congressional review and public 
input. Every subsequent Attorney General (except Attorney General 
Ashcroft) consulted with this Committee on guidelines changes. When 
Attorney General William French Smith undertook major revisions of the 
guidelines at the beginning of the Reagan Administration, the effort 
was accompanied by over a year of consultation, public debate, and 
Congressional hearings. Never before has an Attorney General undertaken 
major revisions to the FBI Guidelines without any prior consultation 
with the relevant Committees of Congress.
--Major Concerns with the Changes
    A major change brought about by the Ashcroft Guidelines is that 
they authorize investigative activity in the absence of any indication 
of criminal conduct. The central feature of the Levi/Smith/Thornburgh 
guidelines was the criminal standard: the FBI could initiate a full 
domestic counter-terrorism investigation when facts and circumstances 
reasonably indicated that two or more people were engaged in an 
enterprise for the purpose of furthering political goals through 
violence. FBI agents could conduct quite intrusive preliminary 
investigations on an even lower standard. The old guidelines allowed 
FBI agents to go into any mosque or religious or political meeting if 
there was reason to believe that criminal conduct was being discussed 
or planned there, and, in fact, over the years the FBI conducted 
terrorism investigations against a number of religious organizations 
and figures, ranging from the white supremacist Christian Identity 
Movement to the African-American Church of Yahweh. Separate guidelines 
even allowed undercover operations of religious and political groups, 
subject to close supervision.
    Under the Levi/Smith/Thornburgh guidelines, once an investigation 
or even a preliminary inquiry was opened, the FBI could use any and all 
public source information (including the Internet) to collect 
personally-identifiable information relevant to the investigation. In 
fact, an investigation could consist solely of the collection of 
newspaper articles and Internet material and the indexing of that 
information by name. The evidence could in fact consist largely or 
exclusively of information about the exercise of First Amendment 
rights. The only requirement was that there first had to be some 
minimal reason to believe that something illegal was being planned.
    Now, the FBI is cut loose from that standard, with no indication as 
to how it should prioritize its efforts or avoid chilling First 
Amendment rights.
    Visiting Religious and Political Meetings--The new guidelines 
purport to give the FBI authority to attend public meetings of a 
religious or political nature, without any scintilla of suspicion of 
criminal or terrorist activity. The problem is compounded by poor 
guidance on what can be recorded and the lack of time limits on the 
retention of data acquired.
    In the past, under the Domestic Guidelines, the FBI was guided by 
the criminal nexus--in deciding what mosques to go to and what 
political meetings to record, it had to have some reason to believe 
that terrorism might be discussed. Under the new guidelines, even 
before opening a preliminary inquiry, the FBI can go to mosques and 
political meetings. How will it decide which ones to go to? We fear it 
will be on the basis of politics, religion, or ethnicity.
    Should FBI Agents Surf the Net Like Teenagers?--According to 
justifications issued by the DOJ with the new guidelines, FBI agents 
previously could not conduct online searches under the term 
``anthrax,'' even after the initial appearance of the anthrax letters. 
That is absurd--there was an ongoing investigation. Anyhow, no privacy 
rights or civil liberties are implicated in searches--before or after 
the appearance of the anthrax letter--for words like ``anthrax.'' That 
is not what the guidelines were about. The question is whether the FBI 
can make searches for ``Palestinian rights'' or other terms with a 
political, ethnic or religious significance, as the starting point for 
an investigation. The change either authorizes politically guided 
investigations or it authorizes fishing expeditions
    Pursuing Investigations That Turn Up Nothing--Finally, the 
revisions decreased the internal supervision and coordination at 
various stages of investigation, in particular expanding the scope and 
duration of preliminary inquiries (by definition, these are cases that 
are opened on less than reasonable indication of criminal or terrorist 
conduct), encouraging the use of more intrusive techniques with no 
sense of prioritization and allowing intrusive investigations to go on 
for periods without producing results and without internal review or 
any outside or independent scrutiny.\6\
---------------------------------------------------------------------------
    \6\ The period for preliminary inquiries with no supervisory review 
has increased from 90 to 180 days. Preliminary inquiries may go on for 
up to one year without notifying Headquarters. While the time 
limitations have increased, the levels of authorization have decreased. 
Authority for extensions in preliminary inquiries - cases that are 
producing no reasonable indication of criminal conduct - has been 
reduced from FBI Headquarters to a Special Agent in Charge. Likewise, 
authority for the initiation and review of full investigations has been 
reduced from a Director or Assistant Director to a Special Agent in 
Charge.
---------------------------------------------------------------------------
    Preliminary inquiries can use all techniques except two: mail 
openings and wiretaps. This means that the FBI can use informants, 
Internet searches, undercover operations, and physical and photographic 
surveillance. Under the old guidelines, if 90 days of investigation 
turned up no indication of criminal activity, the investigation could 
be continued only with HQ approval. Under the new guidelines, 
preliminary inquiries can continue 1 year without HQ approval. This 
means that the FBI can conduct an investigation, using highly intrusive 
techniques, for one year (and longer with HQ approval) even if the 
investigation is turning up no reasonable indication of criminal 
activity.
    Broadening the FBI's surveillance authority threatens civil 
liberties and wastes resources while increasing the risk of 
intelligence failures. The salient identifiable cause of the September 
11 intelligence failure was the inability of the FBI and other agencies 
to use the information they already had. The guidelines are likely to 
compound that defect, thereby producing no improvement in security.
--Congressional Oversight is Necessary
    Consistent Congressional oversight is vital to protect our security 
and our civil liberties. Attorney General Ashcroft changed the FBI 
Guidelines with the stroke of a pen without prior notice or 
consultation with Congress. This is not only unprecedented, but does 
not bode well for Congressional oversight over FBI activity to ensure 
both protection of constitutional rights and success in the fight 
against terrorism.
    In responding to the issues raised by the guideline changes, we 
recommend the following steps:

        <bullet>  Require through appropriations language prior notice 
        and meaningful consultation before future guideline changes can 
        take effect, including changes in the International Guidelines

        <bullet>  Require the adoption, following Congressional 
        consultation and comment, of Guidelines for collection, use, 
        disclosure and retention of public event information. Such 
        guidelines should include a provision specifying that no 
        information regarding the First Amendment activities of a U.S. 
        person or group composed substantially of U.S. persons can be 
        disseminated outside the FBI except as part of a report 
        indicating that such person or group is planning or engaged in 
        criminal activity.

        <bullet>  Provide resources and authority to the General 
        Accounting Office and the DOJ Inspector General to collect and 
        analyze information on implementation of the anti-terrorism 
        guidelines and to submit to Congress public and classified 
        reports on their impact on an open society, free speech, and 
        privacy and benefits and costs to national security.
              v. rectifying flaws in the surveillance laws
    We should not loose sight of the fact that before the PATRIOT Act 
there were concerns that the checks and balances in the surveillance 
laws were insufficient. As a result of the digital revolution more 
information is more readily available to government investigators than 
ever before. The judges have not aggressively regulated electronic 
surveillance. Last year, only one government application for electronic 
surveillance was turned down. For each of the prior three years (1999-
2001), not a single judge anywhere in the country, state or federal, 
turned down a single request for surveillance in any case, criminal or 
intelligence. The minimization requirement has been judicially 
eviscerated. The Congress could start by taking up the helpful changes 
to surveillance law developed and passed by the House Judiciary 
Committee in the 106th Congress, under H.R. 5018, including:

        <bullet>  Heightened protections for access to wireless 
        location information, requiring a judge to find probable cause 
        to believe that a crime has been or is being committed. Today 
        tens of millions of Americans are carrying (or driving) mobile 
        devices that could be used to create a detailed dossier of 
        their movements over time--with little clarity over how that 
        information could be accessed and without an appropriate legal 
        standard for doing so.

        <bullet>  A meaningful standard for use of expanded pen 
        registers and trap and trace capabilities, requiring a judge to 
        at least find that specific and particularly facts reasonably 
        indicate criminal activity and that the information to be 
        collected is relevant to the investigation of such conduct.

        <bullet>  Addition of electronic communications to the Title 
        III exclusionary rule in 18 USC Sec. 2515 and add a similar 
        rule to the section 2703 authority and the pen register and 
        trap and trace authority. This would prohibit the use in any 
        court or administrative proceeding of email or other Internet 
        communications intercepted or seized in violation of the 
        privacy standards in the law.

        <bullet>  Require high-level Justice Department approval for 
        applications to intercept electronic communications, as is 
        currently required for interceptions of wire and oral 
        communications.

        <bullet>  Require statistical reports for Sec. 2703 
        disclosures, similar to those required by Title III.

    Beyond these changes, there are issues raised by the PATRIOT Act 
that need to be addressed:

        <bullet>  Require more extensive public reporting on the use of 
        FISA, to allow better public oversight.

        <bullet>  Make the use of FISA evidence in criminal cases 
        subject to the Classified Information Procedures Act.

        <bullet>  Limit the use of secret searches.
Conclusion
    We need limits on government surveillance and guidelines for the 
use of information not merely to protect individual rights but to focus 
government activity on those planning violence. The criminal standard 
and the principle of particularized suspicion keep the government from 
being diverted into investigations guided by politics, religion or 
ethnicity. Legal standards should focus on perpetrators of crime, avoid 
indulging in guilt by association, maintain procedures designed to 
identify the guilty and exonerate the innocent, insist on limits on 
surveillance authority, and bar political spying.

    Mr. Chabot. Thank you very much. Our next witness will be 
Mr. Kerr. Professor Kerr.

    STATEMENT OF ORIN KERR, ASSOCIATE LAW PROFESSOR, GEORGE 
                WASHINGTON UNIVERSITY LAW SCHOOL

    Mr. Kerr. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to testify today.
    Before 9/11 2001, there were a bunch of pretty esoteric 
laws on the books, such as the Electronic Communications 
Privacy Act and the Foreign Intelligence Surveillance Act, and 
few people understood them well and many people didn't even 
know they existed. Following 9/11 and following the PATRIOT 
Act, these are the laws that are now on the front page of the 
paper, putting this Congress in the difficult and very 
important position of coming up with the right set of rules 
that should govern the Executive Branch in its investigations, 
criminal investigations and counterintelligence terrorism 
investigations, both online and off, made all the more 
important and real by the attacks of 9/11.
    The difficult challenge, of course, is to navigate some 
sort of middle ground between two clearly undesirable 
alternatives. Give the Executive Branch too much power, and it 
enables abuses which could violate our civil liberties. Give 
the Government too little power, and it disables the Government 
from protecting the public from the threat of both terrorism 
and crime. This issue is made all the more important for 
Congress because the courts have generally proven relatively 
deferential--for example, in deciding that the Fourth Amendment 
does not protect any addressing information of either Internet 
or, or non-Internet communications--making those standards, 
really, something that is up to the Congress.
    Yet another challenge in this area is that the press has 
often had a hard time explaining what these very complicated 
laws do, so oftentimes the newspapers will say the law's doing 
one thing, when in reality the stories have gotten it slightly 
off, still posing very difficult challenges for the Congress to 
find that balance in a way that reflects what the laws are 
actually doing, often requiring a great deal of scrutiny of 
very difficult statutory texts that can go on for many pages.
    One example of a change to surveillance laws which I think 
is a positive one, although only a partial step toward the 
right solution, brought about by the PATRIOT Act, is section 
216 of the PATRIOT Act, which clarifies that the pen register 
law, a 1986 law, applies as well to the Internet. That's a law 
which was designed to apply to the telephone, and it protects 
the privacy of telephone communications addressing information; 
for example, the numbers dialed on the telephone. Prior to the 
PATRIOT Act, it was simply unclear whether that law also 
protected Internet communications or whether non-content 
information relating to Internet communications was simply 
unprotected by Federal statutory law. Content information 
clearly protected by the Wiretap Act--that was made clear in 
1986--but non-content information left unclear under the 
Electronic Communications Privacy Act and not clarified until 
the PATRIOT Act.
    Section 216 of the PATRIOT Act did make clear that that law 
applies to the Internet, an important change, I think, because 
it makes clear that, for example, the Government does need a 
court order to conduct non-content monitoring. The possibility 
that was present before the PATRIOT Act was that actually the 
lack of clarity as to whether the law applied could have made 
it such that no court order was necessary for the Government 
to, for example, install Carnivore in the Internet. This law 
actually struck a balance, which I think is on the road to the 
proper balance, but only part of the way, toward making a 
better balance on Internet communications.
    In particular, I would say--agree with Mr. Dempsey that a 
higher standard for the pen register law is probably a good 
idea--something like the specific and articulable facts 
standard which governs stored communications, stored non-
content communications. That's found in 18 USC 2703(d)--I think 
a sensible move to raise the threshold in that law.
    I would also say, on the question of section 215, the 
controversial law applying to--that people are worried applies 
to libraries, sort of an equivalent to a subpoena authority for 
terrorism investigations. How worrisome that law is really 
depends on what your point of reference is. So for example the 
Government says, well, the point of reference should be 
criminal authorities and in particular the subpoena authority, 
grand jury subpoena, which has traditionally been used to 
obtain records at libraries. And if you look at section 215 
with that as your frame of reference, section 215 is not all 
that different, sort of a national security version of this 
traditional grand jury authority.
    However, you could look at it from another perspective, 
sort of ignore the fact that there's this traditional existing 
subpoena authority, and say in the abstract, this is a pretty 
worrisome law and in fact the difficulty is that the subpoena 
rules don't regulate privacy enough and that we need to raise 
both standards rather than move to the lower standard for both.
    I think the answer is in clarification of the existing 
standard. To find a slightly better balance, I agree--somewhere 
in between, I would say, between these two standards, and 
that's the right approach.
    Thank you.
    [The prepared statement of Mr. Kerr follows:]
                   Prepared Statement of Orin S. Kerr
    Mr. Chairman and members of the Subcommittee, my name is Orin S. 
Kerr, and I am an Associate Professor at George Washington University 
Law School. I am grateful for the opportunity to appear before you 
today to discuss Internet surveillance law and the effect of the USA 
Patriot Act.
    My testimony will focus on the controversial pen register 
amendments to the Patriot Act, found in Section 216 of the Act. As you 
know, these amendments have received a great deal of criticism. Critics 
have claimed that the amendments gave the government unprecedented 
powers to wiretap the Internet. I believe that these criticisms are 
misplaced. They are based on a misunderstanding of how the complex laws 
governing Internet surveillance interact with each other. When properly 
understood, the Patriot Act's provisions applying the pen register law 
to the Internet appear instead as an important first step toward 
modernizing the surveillance laws and protecting privacy in the 
Internet age. The pen register amendments to the Patriot Act are not so 
much part of the problem as they are an initial step toward a solution 
that will best balance the protection of privacy and the needs of law 
enforcement. In my testimony this afternoon, I will explain why I 
believe this is true. I will then suggest two additional steps that I 
believe Congress should take to develop this area of law in the future.
    Before I begin, let me note that my testimony this afternoon is a 
streamlined version of an argument I made in a recent law review 
article. Those wishing to read more can look at the full article, 
``Internet Surveillance Law After the USA Patriot Act: The Big Brother 
That Isn't.'' The article appears in the Winter 2003 issue of the 
Northwestern University Law Review, and it covers the pen register 
laws, the use of Carnivore, and the new computer trespasser exception 
to the Wiretap Act. A .pdf copy of the article can be downloaded for 
free from the Internet at this address: http://papers.ssrn.com/sol3/
papers.cfm?abstract--id=317501.
    To begin understanding the effect of the Patriot Act's pen register 
amendments, it helps to start with some history. The surveillance laws 
that apply to the Internet were originally designed to apply to the 
telephone network. Telephone network surveillance is governed by two 
complementary laws: the Wiretap Act, enacted in 1968 and codified at 18 
U.S.C. Sec. Sec. 2510-22; and the Pen Register Statute, enacted in 1986 
and codified at 18 U.S.C. Sec. Sec. 3121-27. These two laws govern 
real-time surveillance of the telephone network in criminal 
investigations. The laws coexist because they cover different things: 
the Wiretap Act protects the ``contents'' of communications with a very 
high degree of privacy protection, and the Pen Register statute 
protects non-content addressing information with a lesser degree of 
privacy protection. This bifurcation between contents and non-content 
addressing information is consistent with and follows from the Supreme 
Court's cases interpreting how the Fourth Amendment applies to the 
telephone network. In Berger v. New York, 388 U.S. 41 (1967), the 
Supreme Court held that the Fourth Amendment protected the contents of 
telephone calls, whereas in Smith v. Maryland, 442 U.S. 745 (1979), the 
Supreme Court held that the Fourth Amendment does not protect non-
content information relating to telephone calls such as might be 
collected by a pen register device, which was an early machine used to 
record the numbers dialed from a telephone.
    The line between the Wiretap Act and the Pen Register statute is 
easy to understand for a traditional telephone call. If I place a phone 
call, the actual conversation between the person I call and myself are 
the ``contents'' of the call. If the government wishes to listen in on 
the call, the privacy protections of the Wiretap Act prohibit the 
government from doing so unless the government first obtains a Wiretap 
Order, which is a type of ``super'' search warrant. In contrast, 
information about the call such as my phone number, the time I called, 
the duration of the call, and the number I dialed is the non-content 
addressing information about the call. This information is protected by 
the Pen Register statute but not the Wiretap Act. If the government 
wishes to have the phone company record this information and disclose 
it to the government, the privacy protections of the Pen Register 
statute prohibit this unless the government first obtains a pen 
register order. A pen register order is a ``relevance'' court order; 
the government can obtain such an order if the information to be 
collected is relevant to an ongoing criminal investigation. The basic 
rule is that the lesser privacy protections of the Pen Register statute 
apply to non-content information, and the greater privacy protections 
of the Wiretap Act apply to content information.
    Now let's turn from the telephone network to the Internet. In 1986, 
Congress enacted the Electronic Communications Privacy Act, also known 
as ``ECPA.'' ECPA established that the Wiretap Act that protects the 
contents of telephone calls also protects the contents of Internet 
communications. ECPA also created a new privacy law known as the Stored 
Communications Act, codified at 18 U.S.C. Sec. Sec. 2701-11, which 
created statutory privacy protection for stored Internet communications 
such as stored e-mails. However, ECPA left a very important question 
unclear: what privacy protection if any applied to real-time 
surveillance of non-content addressing information for Internet 
communications? What law governs the real-time surveillance of Internet 
packet headers or e-mail headers--non-content addressing information 
that is the Internet equivalent of the outside envelope of a postal 
letter or the addressing information for a telephone call? The Pen 
Register statute that already protected equivalent information for 
telephone calls provided the obvious source of privacy protection, but 
its scope was unclear. As enacted in 1986, parts of the Pen Register 
statute appeared to apply broadly to protect both telephone and 
Internet communications. However, other parts of the statute seemed 
narrowly drafted to apply only to the telephone. These mixed signals 
left the scope of the Pen Register statute unclear. The text of the 
1986 Act simply failed to answer whether the Pen Register statute 
protected the privacy of non-content Internet communications in the 
same way it protected the privacy of non-content telephone 
communications.
    The uncertain scope of the Pen Register statute created a 
complicated situation for law enforcement before the enactment of the 
Patriot Act. The applicable law looked quite different depending on 
whether one assumed that the Pen Register law applied to the Internet. 
If the Pen Register statute did apply to the Internet, then the law 
prohibited the government from monitoring non-content information on 
the Internet without a pen register court order. It also made it a 
crime for private parties or foreign governments to conduct such 
surveillance. At the same time, the law would then authorize the 
government to conduct non-content surveillance (or order an Internet 
service provider to conduct such surveillance on the government's 
behalf) by obtaining a pen register order. If the Pen Register law did 
not protect the privacy of Internet communications, however, then no 
privacy law at all protected non-content information of Internet 
communications in transit. The government would be able to install 
Internet wiretapping devices such as ``Carnivore'' without any court 
order or any judicial review so long as the device did not collect any 
contents and was therefore exempt from the Wiretap Act. Any private 
citizen or foreign government would have been able to do the same. At 
the same time, the law would have left unclear what authority the 
government would be able to use to compel an Internet service provider 
to conduct such surveillance on the government's behalf.
    In the period before the Patriot Act, the Department of Justice 
concluded that on balance the better argument was that the Pen Register 
statute did apply to the Internet. In other words, DOJ concluded that 
the law protected the privacy of Internet communications and required 
the government to obtain a court order before it could conduct real-
time surveillance of non-content information on-line. Federal 
prosecutors routinely obtained pen register orders from magistrate 
judges in Internet crime investigations. While magistrate judges 
occasionally expressed initial concern over whether the Pen Register 
statute in fact applied to the Internet, every federal magistrate judge 
except one concluded that the statute did apply to the Internet and 
approved the government's application for the court order. The one 
magistrate judge who disagreed was located in San Jose, California. In 
an unpublished order in November 2000, this particular judge denied the 
government's ex parte application for a pen register order on the 
ground that the Pen Register statute did not apply to the Internet, but 
rather applied only to the telephone network.
    Section 216 of the Patriot Act clarified that the Pen Register 
statute did in fact protect the privacy of Internet communications. It 
replaced the telephone-specific language from the 1986 Act with 
broader, technology-neutral language: the new version of the Pen 
Register statute protects any real-time non-content ``dialing, routing 
addressing, or signaling information'' relating to either telephone or 
Internet communications. In practice, this amendment maintained the 
status quo: it permitted the Justice Department to continue its pre-
Patriot Act procedures. How much the change altered existing law in a 
formal sense depends upon whether you conclude that the Pen Register 
law applied to the Internet before the Patriot Act. If you believe that 
the Pen Register law did already apply, then the amendment merely 
clarified existing law. If you believe that it did not, the amendment 
extended the privacy protection of the Pen Register statute to the 
Internet.
    I believe this amendment was a positive step forward that would 
have won widespread support if it had been better understood at the 
time of the Patriot Act's passage. The amendment expanded the scope of 
a privacy law, making sure that the government needed a court order 
where before it was possible that no court order was necessary. Why did 
this provision trigger such controversy? One reason is that many 
commentators incorrectly believed that the Pen Register amendments 
lessened the protections of the companion Wiretap Act. Many 
commentators wrongly assumed that before the Patriot Act, the Wiretap 
Act had protected both contents and non-content information. Based on 
that incorrect assumption, they concluded that the Pen Register 
amendments lessened privacy protections by moving the protection of 
non-content information from the high privacy protections of the 
Wiretap Act to the lower protections of the Pen Register statute. This 
led to widely-reported claims that the Pen Register amendments gave the 
government unprecedented new powers to wiretap the Internet without a 
probable cause search warrant.
    The premise is mistaken, however. The Wiretap Act protects only the 
contents of communications; it does not protect non-content 
information. This was true both before and after the Patriot Act. The 
Patriot Act did not change the scope of the Wiretap Act's protection of 
contents; it left unchanged the statutory definition of ``contents'' in 
18 U.S.C. Sec. 2510(8) that has existed since 1986. To the extent the 
pen register amendment of the Patriot Act changed the law at all, it 
increased the scope of privacy protections by making sure that non-
content information was not left unprotected by federal privacy law. 
This did empower the government to obtain court orders in Internet 
crime investigations under the low pen register standard: as is always 
the case with laws regulating surveillance, the power to seek a court 
order to conduct the surveillance is an exception to the law that 
applies when the law regulates the surveillance. But the pen register 
amendment did not lessen the protections of the Wiretap Act. Instead it 
clarified that the same rules apply to the Internet that have 
traditionally applied to the telephone.
    I stated at the beginning of my testimony that the pen register 
amendments of the Patriot Act were an important first step toward 
modernizing the Internet surveillance laws and protecting privacy. This 
raises the question, what steps remain? I think there are two areas 
that should demand Congress's attention in the future.
    First, Congress should clarify the line between ``contents'' 
protected by the Wiretap Act and ``dialing, routing, addressing, and 
signaling information'' protected by the Pen Register statute. Today we 
know that human-to-human communications such as the body and the 
subject lines of e-mails count as ``contents.'' We also know that 
computer-to-computer communications such as Internet Protocol packet 
headers count as ``dialing, routing, addressing, and signaling 
information.'' However, we don't know how human-to-computer 
communications are treated under current law. Just two weeks ago, one 
court suggested that search terms entered into Internet search engines 
are contents protected by the Wiretap Act. See In re Pharmatrak, Inc. 
Privacy Litigation,--F.3d--, 2003 WL 21038761 (1st Cir. May 9, 2003). 
Three years ago, another court indicated that passwords entered into 
computers are also contents protected by the Wiretap Act. See United 
States Telecom Ass'n v. FCC, 227 F.3d 450, 462 (D.C. Cir. 2000). 
However, the absence of a statutory suppression remedy in the Internet 
surveillance laws means that these decisions appear only sporadically 
in unusual civil contexts, and tend to have uncertain scope. Congress 
should either add a statutory suppression remedy that will have the 
effect of empowering the courts to clarify the line between the two 
statutes in criminal cases, or should take steps to clarify that line 
itself.
    Second, I believe that Congress should raise the standard that the 
government needs to satisfy to obtain a pen register court order. 
First, the factual threshold should be raised from mere relevance to 
``specific and articulable facts,'' matching the protection that exists 
under current law for stored non-content records. See 18 U.S.C. 
Sec. 2703(d). Second, the current certification standard should be 
replaced with judicial review. Current law states that the government 
lawyer applying for a pen register order must certify that the factual 
threshold has been satisfied, and requires the magistrate judge to 
grant the application if the certification has been made. The law 
should be changed so that magistrate judges evaluate whether the 
government's application satisfies the factual showing. Again, this 
matches the protection that exists under current law for stored non-
content records. The added judicial review will provide the public a 
greater assurance that the law is not being abused, whether in the 
telephone context or the Internet context. At the same time, based on 
my experience as a federal prosecutor I believe that the slightly 
higher threshold will not create a substantial burden for law 
enforcement.
    Let me conclude by offering a few thoughts on the big picture. 
Today the law of Internet surveillance in criminal investigations 
remains governed primarily by the Electronic Communications Privacy Act 
of 1986. Congress has amended this law several times since 1986, 
including when it passed the USA Patriot Act, but the basic framework 
of the 1986 law remains in place. The 1986 Act was a remarkable 
achievement for its day: it protected the privacy of Internet 
communications long before most Americans had even heard of the 
Internet. Even today, the law remains surprisingly workable and 
effective. The 1986 Act left many questions unresolved, however. The 
fast pace of technological change raises the bar as well; developments 
such as the World Wide Web require us to fit new technologies into old 
laws. As a result, the Internet surveillance laws demand constant 
legislative attention both to address existing problems latent in the 
1986 statutory scheme and to address new difficulties raised by 
technological change.
    Fortunately, the provisions of the USA Patriot Act that relate to 
Internet surveillance in criminal investigations are much more balanced 
than many have feared. Much of the media coverage surrounding 
provisions such as the pen register amendments failed to appreciate the 
complex inner workings of the law, and as a result tended to 
misrepresent the effect of the Patriot Act in ways that made the 
Patriot Act seem more of a departure from existing law than it actually 
was. On reflection, today we can see that changes such as the pen 
register amendment did not substantially shift the balance between 
privacy and security. Rather, the law updated a 1986 privacy law and 
clarified that the same privacy protection that applies to the 
telephone also applies to the Internet. Much work remains to be done; 
the statutory laws that regulate Internet surveillance will surely keep 
Congress busy for years to come. However, the pen register amendments 
of the USA Patriot are best understood as part of a necessary response 
to preexisting ambiguities and technological change. They are 
consistent with rather than a departure from Congress's historical 
efforts to create rules that effectively balance privacy and security 
in new technologies.

    Mr. Chabot. Thank you, Professor. And our final witness 
this afternoon will be Mr. Rosenzweig.

   STATEMENT OF PAUL ROSENZWEIG, SENIOR RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Rosenzweig. Thank you, Mr. Chairman. And thank you very 
much for the opportunity to be here. It's pleasing to hear 
one's words quoted back at one, although I confess, Mr. Nadler, 
that if I go back and tell them that you've quoted me, they're 
going to wonder what's up back at the Heritage Foundation as 
well. But----
    Mr. Nadler. You never know what conspiracies are afoot on 
this Committee.
    Mr. Rosenzweig. But what I think that that demonstrates, 
actually, is that this is an issue where those who are 
traditionally skeptical of Big Government because of its 
ability to invade people's social privacy, and those who are--
who come from my tradition of skepticism about Big Government 
as an engine for economic and--change, tend to find a little 
bit more common ground.
    Taking seriously the Committee's question posed in the 
title of the hearing about the Fourth Amendment--that is, 
whether or not the Fourth Amendment places any limits on what 
the Government can do--I think the candid answer is ``not 
really,'' under the current state of Fourth Amendment 
jurisprudence. The Court has said since 1967 that information 
one voluntarily exposes to public display, it doesn't come 
within the scope of what is deemed a search and therefore 
subject to the Fourth Amendment.
    Another way of thinking about it is a rhetorical question I 
sometimes ask, which is, ``What is the single greatest 
constitutional violation of the Fourth Amendment that has 
occurred since September 11?'' And in my judgment, the answer 
probably is the stopping of every car on the highway without 
cause or suspicion in our vain efforts, through that method, to 
find the snipers who plagued Washington, DC, last summer--
plainly an unconstitutional act under Indianapolis v. Edmonds 
and other Supreme Court decisions, but one that almost nobody 
seemed to actually complain about at the time.
    By contrast, the constitutional limitations on the access 
to non-information--for example, pen registers and addressing 
information on the Internet--has, at least since the mid-
1970's, been clearly--there's clearly been no protection at 
all. Thus we are left with a constitutional regime where the 
only limits on Government activity, Executive Branch activity 
must stem from the positive law enacted by this Congress, 
this--and originating generally in this Committee, i.e., the 
PATRIOT Act, which is why we are focused principally today on 
the provisions of the PATRIOT Act and the specific words 
therein, because they are supplements and in addition to what 
is, at least in the current regime, very minimal constitutional 
protections.
    Turning, then, to what this Committee has done--or I'll 
address an area where the Committee has done very little, the 
recent FBI change in investigative guidelines relating to the 
FBI's ability to enter into public places and access public 
information on the Internet.
    As I said, right now, since that information is exposed to 
the public by the original data holder or the attendees at the 
public meetings, there's very little the Constitution has to 
say. There's also very, very little that the PATRIOT Act has to 
say about the lawfulness of those activities. They are guided 
almost exclusively by the Attorney General's guidelines and 
past historical practice. In some instances, the courts have 
stepped in to regulate excessive uses of this investigative 
authority as trenching, perhaps, upon First Amendment concerns; 
that is, where the police use the authority, law enforcement 
uses the authority to enter into public places for the purposes 
of gaining information about an association, its members, or 
its exercise of First Amendment activity in a way that is 
intended to impinge upon that. But right now, there is nothing, 
at least--let me amend--very little that mandates the Attorney 
General's guidelines presently in place be used and mandates 
that these be the particular ones that are chosen.
    For my part, I think ultimately the question that this 
Committee has to face in addressing the guidelines and, 
frankly, in addressing all of these concerns, is whether or not 
we should maintain a high set of standards knowing that in 
doing so we may miss some investigative opportunities, 
important investigative opportunities that might protect the 
American public; or lower those standards, accepting that there 
may be some abuse, and hope and expect that congressional 
oversight, of the form that my colleagues on the panel have 
already talked about, will protect those. As a strong backer of 
congressional oversight and a believer in it, I hope that the 
latter is sufficient.
    And I see my time's expired, so I will be happy to get into 
more detail.
    [The prepared statement of Mr. Rosenzweig follows:]
                 Prepared Statement of Paul Rosenzweig
    Good afternoon Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to testify before you today on the challenge of 
maintaining the balance between security and constitutionally protected 
freedoms inherent in responding to the threat of terror, especially in 
the government investigations and data mining.
    For the record, I am a Senior Legal Research Fellow in the Center 
for Legal and Judicial Studies at The Heritage Foundation,\1\ a 
nonpartisan research and educational organization. I am also an Adjunct 
Professor of Law at George Mason University where I teach Criminal 
Procedure and an advanced seminar on White Collar and Corporate Crime. 
I am a graduate of the University of Chicago Law School and a former 
law clerk to Judge Anderson of the U.S. Court of Appeals for the 
Eleventh Circuit. For much of the past 15 years I have served as a 
prosecutor in the Department of Justice and elsewhere, prosecuting 
white-collar offenses. During the two years immediately prior to 
joining The Heritage Foundation, I was in private practice representing 
principally white-collar criminal defendants. I have been a Senior 
Fellow at The Heritage Foundation since April 2002.
---------------------------------------------------------------------------
    \1\ The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(c)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work. The 
Heritage Foundation is the most broadly supported think tank in the 
United States. During 2002, it had more than 200,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2002 contributions came from the following sources: 
Individuals (61%); Foundations (27%); Corporations (7%); Investment 
Income (1%); and Publication Sales and Other (3%). Members of The 
Heritage Foundation staff testify as individuals discussing their own 
independent research. The views expressed are their own and do not 
reflect an institutional position for The Heritage Foundation or its 
board of trustees.
---------------------------------------------------------------------------
    My perspective on this matter, then, is that of a lawyer and a 
prosecutor with a law enforcement background, not that of technologist 
or an intelligence officer/analyst. I should hasten to add that much of 
my testimony today is based upon a series of papers I have written on 
various aspects of this topic and testimony I have given before other 
bodies in Congress, all of which are available at The Heritage 
Foundation website (www.heritage.org). For any who might have read this 
earlier work, I apologize for the familiarity that will attend this 
testimony. Repeating myself does have the virtue of maintaining 
consistency--I can only hope that any familiarity with my earlier work 
on the subject does not breed contempt.
    It is a commonplace for those called to testify before Congress to 
commend the Representatives or Senators before whom they appear for 
their wisdom in recognizing the importance of whatever topic is to be 
discussed--so much so that the platitude is often disregarded as mere 
puffery. Today, however, when I commend this Subcommittee for its 
attention to the topic at hand--the difficulty of both protecting 
individual liberty and enabling our intelligence and law enforcement 
organizations to combat terror--it is no puffery, but rather a 
heartfelt view. I have said often since September 11 that the civil 
liberty/national security question is the single most significant 
domestic legal issue facing America today, bar none. And, as is 
reflected in my testimony today, in my judgment one of the most 
important components of a responsible governmental policy addressing 
this difficult question will be the sustained, thoughtful, non-partisan 
attention of America's elected leaders in Congress. Nothing is more 
likely, in my judgment, to allow America to find the appropriate 
balance than your engagement in this issue.
    What I would like to do today is assist your consideration of this 
question by sharing with you some general legal analysis on the scope 
of the Fourth Amendment as it might apply in this context. I then offer 
some theoretical principles that you might consider in structuring your 
thinking. Finally, in an effort to avoid being too theoretical, I'd 
like to apply those principles to the concrete issues of data mining in 
the Total Information Awareness (TIA) program and the revised FBI 
investigative guidelines.
    But let me first give you a short, pithy answer to the question 
posed by the title of today's hearing: Where and when can the 
government go to prevent terrorist attacks? The short answer is: ``As a 
matter of constitutional law, virtually anywhere that any other member 
of the public can go.'' The more difficult and interesting question is 
how best should those efforts be regulated as a matter of public policy 
so as to increase our ability to combat terror while minimizing any 
infringement on American liberty interests.
                      fourth amendment principles
    Under settled modern Fourth Amendment jurisprudence, law 
enforcement may secure without a warrant (through a subpoena) an 
individual's bank records, telephone toll records, and credit card 
records, to name just three of many sources of data. Other information 
in government databases (e.g. arrest records, entries to and exits from 
the country, and driver's licenses) may be accessed directly without 
even the need for a subpoena.
    In 1967, the Supreme Court said that the Fourth Amendment protects 
only those things in which someone has a ``reasonable expectation of 
privacy'' and, concurrently, that anything one exposes to the public 
(i.e., places in public view or gives to others outside of his own 
personal domain) is not something in which he has a ``reasonable'' 
expectation of privacy--that is, a legally enforceable right to 
prohibit others from accessing or using what one has exposed. So, for 
example, federal agents need no warrant, no subpoena, and no court 
authorization to:

        <bullet>  have a cooperating witness tape a conversation with a 
        third party (because the third party has exposed his words to 
        the public);

        <bullet>  attach a beeper to someone's car to track it (because 
        the car's movements are exposed to the public);

        <bullet>  fly a helicopter over a house to see what can be 
        seen; or

        <bullet>  search someone's garbage.

    Thus, an individual's banking activity, credit card purchases, 
flight itineraries, and charitable donations are information that the 
government may access because the individual has voluntarily provided 
it to a third-party. According to the Supreme Court, no one has any 
constitutionally based enforceable expectation of privacy in them. The 
individual who is the original source of this information cannot 
complain when another entity gives it to the government. Some 
thoughtful scholars have criticized this line of cases, but it has been 
fairly well settled for decades.
    Congress, of course, may augment the protections that the 
Constitution provides and it has with respect to certain information. 
There are privacy laws restricting the dissemination of data held by 
banks, credit companies, and the like. But in almost all of these laws 
(the Census being a notable exception), privacy protections are good 
only as against other private parties; they yield to criminal, national 
security, and foreign intelligence investigations. Thus, the extent of 
privacy protection is mostly a creature of legislation, not 
constitutional provisions.
    One important caveat or note should be made here--in the foregoing 
discussion I have spoken principally of the restrictions that apply to 
domestic law enforcement officials. Important additional restrictions 
continue to exist on the authority of foreign intelligence agencies to 
conduct surveillance or examine the conduct of American citizens. 
Conversely, however, the courts have recognized that in the national 
security context the requirements of the Fourth Amendment apply 
somewhat differently than they do in the context of domestic law 
enforcement. Since the issues before the Subcommittee today are, as I 
understand it, principally focused on domestic law enforcement 
activity--potential domestic uses of TIA and the FBI's investigative 
guidelines--I will simply note the distinction here and then, for 
purposes of discussion, allude to it no further.
                         overarching principles
    Since I conclude that, for the most part, limitations on law 
enforcement are likely to be the product of policy rather than 
constitutional law, let me next share with you some general thoughts 
about how cautious, yet effective governmental action can, in my view, 
be implemented. Fundamental legal principles and conceptions of 
American government should guide the configuration of our intelligence 
and law enforcement efforts rather than the reverse. The precise 
contours of any rules relating to the use of any new technology or new 
program will depend, ultimately, on exactly what the new program is 
capable of or intended to accomplish--the more powerful the system or 
program, the greater the safeguards necessary. As a consequence, the 
concerns of civil libertarian critics should be fully voiced and 
considered while any research program is underway.
    In general, unlike civil libertarian skeptics, I believe that new 
intelligence and law enforcement information gathering and information 
analytical systems can (and should) be constructed in a manner that 
fosters both civil liberty and public safety. We should not say that 
the risks of such systems are so great that any effort to construct 
them should be dispensed with.
    Rather in my view, the proper course is to ensure that certain 
overarching principles animate and control the architecture of any new 
program and provide guidelines that will govern implementation of the 
program in the domestic environment.
    The Common Defense--Let me make one important preliminary point: 
Most of the debate over new intelligence systems focuses on perceived 
intrusions on civil liberties, but Americans should keep in mind that 
the Constitution weighs heavily on both sides of the debate over 
national security and civil liberties. The President and Congressional 
policymakers must respect and defend the individual civil liberties 
guaranteed in the Constitution when they act, but there is also no 
doubt that they cannot fail to act when we face a serious threat from a 
foreign enemy.
    The Preamble to the Constitution acknowledges that the United 
States government was established in part to provide for the common 
defense. The war powers were granted to Congress and the President with 
the solemn expectation that they would be used. Congress was also 
granted the power to ``punish . . . Offenses against the Law of 
Nations,'' which include the international law of war, or terrorism. In 
addition, serving as chief executive and commander in chief, the 
President also has the duty to ``take Care that the Laws be faithfully 
executed,'' including vigorously enforcing the national security and 
immigration laws.
    Thus, as we assess questions of civil liberty I think it important 
that we not lose sight of the underlying end of government--personal 
and national security. I do not think that the balance is a zero-sum 
game, by any means. But it is vital that we not disregard the 
significant factors weighing on both sides of the scales.
    Civil Liberty--Of course, just because the Congress and the 
President have a constitutional obligation to act forcefully to 
safeguard Americans against attacks by foreign powers does not mean 
that every means by which they might attempt to act is necessarily 
prudent or within their power. Core American principles require that 
any new counter-terrorism technology deployed domestically) should be 
developed only within the following bounds:

        <bullet>  No fundamental liberty guaranteed by the Constitution 
        can be breached or infringed upon.

        <bullet>  Any increased intrusion on American privacy interests 
        must be justified through an understanding of the particular 
        nature, significance, and severity of the threat being 
        addressed by the program. The less significant the threat, the 
        less justified the intrusion.

        <bullet>  Any new intrusion must be justified by a 
        demonstration of its effectiveness in diminishing the threat. 
        If the new system works poorly by, for example, creating a 
        large number of false positives, it is suspect. Conversely, if 
        there is a close ``fit'' between the technology and the threat 
        (that is, for example, if it is accurate and useful in 
        predicting or thwarting terror), the technology should be more 
        willingly embraced.

        <bullet>  The full extent and nature of the intrusion worked by 
        the system must be understood and appropriately limited. Not 
        all intrusions are justified simply because they are effective. 
        Strip searches at airports would prevent people from boarding 
        planes with weapons, but at too high a cost.

        <bullet>  Whatever the justification for the intrusion, if 
        there are less intrusive means of achieving the same end at a 
        reasonably comparable cost, the less intrusive means ought to 
        be preferred. There is no reason to erode Americans' privacy 
        when equivalent results can be achieved without doing so.

        <bullet>  Any new system developed and implemented must be 
        designed to be tolerable in the long term. The war against 
        terror, uniquely, is one with no immediately foreseeable end. 
        Thus, excessive intrusions may not be justified as emergency 
        measures that will lapse upon the termination of hostilities. 
        Policymakers must be restrained in their actions; Americans 
        might have to live with their consequences for a long time.

    From these general principles can be derived certain other more 
concrete conclusions regarding the development and construction of any 
new technology:

        <bullet>  No new system should alter or contravene existing 
        legal restrictions on the government's ability to access data 
        about private individuals. Any new system should mirror and 
        implement existing legal limitations on domestic or foreign 
        activity, depending upon its sphere of operation.

        <bullet>  Similarly, no new system should alter or contravene 
        existing operational system limitations. Development of new 
        technology is not a basis for authorizing new government powers 
        or new government capabilities. Any such expansion should be 
        independently justified.

        <bullet>  No new system that materially affects citizens' 
        privacy should be developed without specific authorization by 
        the American people's representatives in Congress and without 
        provisions for their oversight of the operation of the system.

        <bullet>  Any new system should be, to the maximum extent 
        practical, tamper-proof. To the extent the prevention of abuse 
        is impossible, any new system should have built-in safeguards 
        to ensure that abuse is both evident and traceable.

        <bullet>  Similarly, any new system should, to the maximum 
        extent practical, be developed in a manner that incorporates 
        technological improvements in the protection of American civil 
        liberties.

        <bullet>  Finally, no new system should be implemented without 
        the full panoply of protections against its abuse. As James 
        Madison told the Virginia ratifying convention, ``There are 
        more instances of the abridgment of the freedom of the people 
        by gradual and silent encroachments of those in power than by 
        violent and sudden usurpations.''
           ``data mining''--total information awareness today
    To that end, let me first discuss the concept of data mining and 
more particularly the Total Information Awareness program (``TIA'')--a 
program that has been widely misunderstood. [For more detail on the 
program I refer you to a paper I co-authored with my Heritage 
colleague, Michael Scardaville--``The Need to Protect Civil Liberties 
While Combating Terrorism: Legal Principles and the Total Information 
Awareness Program,'' The Heritage Foundation, Legal Memorandum No. 6 
(February 2003).]
DATA ANALYSIS
    First, and foremost, I think that much of the public criticism has 
obscured the fact that TIA is really not a single program. Virtually 
all of the attention has focused on the data mining aspects of the 
research program--but far more of the research effort is being devoted 
to providing tools for enhanced data analysis. In other words, TIA is 
not, as I understand it, about bypassing existing legal restrictions 
and providing governmental agencies with access to new and different 
domestic information sources. Rather, it is about providing better 
tools to enable intelligence analysts to more effectively and 
efficiently analyze the vast pool of data already at their disposal--in 
other words to make our analysts better analysts. These tools include, 
for example, a virtual private network linking existing counter-
terrorism intelligence agencies. It would also include, for example, 
research into a machine translation capability to automatically render 
Arabic into English. While these developments certainly pose some 
threat to civil liberty because any enhancement of governmental 
capability is inherently such a threat, they are categorically 
different than the data mining techniques that most concern civil 
libertarians. The threat to civil liberty is significantly less and the 
potential gain from their development is substantial.
    Thus, my first concrete recommendation to you is to not paint with 
too broad a brush--the distinction between collection and analysis is a 
real and important one that, thus far, Congress has failed to 
adequately recognize. Earlier this year, Congress passed an amendment, 
the so-called Wyden amendment, which substantially restricts TIA 
development and deployment. That restriction applies broadly to all 
programs under development by DARPA. That's a mistake. The right answer 
is not for Congress to adopt a blanket prohibition. Rather, Congress 
should commit to doing the hard work of digging into the details of TIA 
and examining its operation against the background of existing laws and 
the existing terrorist threats at home and abroad.
    We have already seen some of the unintended but pernicious effects 
of painting with such a broad brush. Recently at a forum conducted by 
the Center for Strategic Policy, DARPA officials discussed how the 
Wyden amendment had short-circuited plans to sign a Memorandum of 
Understanding (MOU) with the FBI. The FBI, as this Subcommittee knows, 
is substantially behind the technological curve and is busily engaged 
in updating its information technology capabilities. The MOU under 
consideration would have enabled the FBI to join in the counter-
terrorism Virtual Private Network (VPN) being created by the TIA 
program. Again, the VPN is not a new data collection technology--it is 
a technology to enhance data analysis by allowing information sharing. 
Other counter-terrorism agencies with exclusively foreign focus are 
already part of the VPN--the CIA and DIA for example. Though the 
Department of Defense has not reached a final interpretation of the 
Wyden amendment, the lawyers at DoD were sufficiently concerned with 
its possible scope that they directed DARPA to not sign the MOU with 
the FBI. As a consequence one of our principal domestic counter-
terrorism agencies is being excluded from a potentially valuable 
network of information sharing. Extrapolating from this unfortunate 
precedent, it is likely that the Wyden amendment will have the effect 
of further balkanizing our already unwieldy domestic counter-
intelligence apparatus. The same law will probably be interpreted to 
prohibit the Department of Homeland Security from joining the network, 
as well as the counter-terrorism agencies of the various States.
    In short, as Senator Shelby has written of TIA:

          The TIA approach thus has much to recommend it as a potential 
        solution to the imperative of deep data-access and analyst 
        empowerment within a 21st-century Intelligence Community. If 
        pursued with care and determination, it has the potential to 
        break down the parochial agency information ``stovepipes'' and 
        permit nearly pure all source analysis for the first time--yet 
        without unmanageable security difficulties. If done right, 
        moreover, TIA would be infinitely scalable: expandable to as 
        many databases as our lawyers and policymakers deem to be 
        appropriate.
          TIA promises to be an enormously useful tool that can be 
        applied to whatever data we feel comfortable permitting it to 
        access. How broadly it will ultimately be used is a matter for 
        policymakers to decide if and when the program bears fruit. It 
        is worth emphasizing, however, that TIA would provide 
        unprecedented value-added even if applied exclusively within 
        the current Intelligence Community--as a means of finally 
        providing analysts deep but controlled and accountable access 
        to the databases of collection and analytical agencies alike. 
        It would also be useful if applied to broader U.S. Government 
        information holdings, subject to laws restricting the use of 
        tax return information, census data, and other information. 
        Ultimately, we might choose to permit TIA to work against some 
        of the civilian ``transactional space'' in commercially-
        available databases that are already publicly and legally 
        available today to marketers, credit card companies, criminals, 
        and terrorists alike. The point for civil libertarians to 
        remember is that policymakers can choose to restrict TIA's 
        application however they see fit: it will be applied only 
        against the data-streams that our policymakers and our laws 
        permit.

Put more prosaically, it remains for this Congress to decide how widely 
the analytical tools to be provided by TIA are used--but it is 
imperative that Congress understand that the tools themselves are 
distinct from the databases to which they might have access.
DATA COLLECTION--STRUCTURAL LIMITATIONS
    As for concerns that the use of new data collection technologies 
will intrude on civil liberties by affording the government access to 
new databases, I certainly share those concerns. The question then is 
how best to ensure that any domestic use of TIA (or, frankly, any other 
intelligence gathering program) does not unreasonably intrude on 
American domestic civil liberties. There are several operational 
principles that will effectively allow the use of TIA while not 
substantially diminishing American freedom. Amongst these are the 
following requirements:
    Require congressional authorization. In light of the underlying 
concerns over the extent of government power, it is of paramount 
importance that there be formal congressional consideration and 
authorization of the TIA program, following a full public debate, 
before the system is deployed. Some of the proposed data-querying 
methods (for example, the possibility for access to non-government, 
private databases, which is discussed in the next section) would 
require congressional authorization in any event. But, more 
fundamentally, before any program like TIA--with both great potential 
utility and significant potential for abuse--is implemented, it ought 
to be affirmatively approved by the American people's representatives. 
Only through the legislative process can many of the restrictions and 
limitations suggested later in this testimony be implemented in an 
effective manner. The questions are of such significance that they 
should not be left to executive branch discretion alone.
    Maintain stringent congressional oversight. In connection with the 
congressional authorization of TIA, Congress should also commit at the 
outset to a strict regime of oversight of the TIA program. This would 
include periodic reports on TIA's use once developed and implemented, 
frequent examination by the U.S. General Accounting Office, and, as 
necessary, public hearings on the use of TIA. Congressional oversight 
is precisely the sort of check on executive power that is necessary to 
insure that TIA-based programs are implemented in a manner consistent 
with the appropriate limitations and restrictions. Without effective 
oversight, these restrictions are mere parchment barriers. While 
potentially problematic, one can be hopeful that congressional 
oversight in this key area of national concern will be bipartisan, 
constructive, and thoughtful. Congress has an interest in preventing 
any dangerous encroachment on civil liberties by an executive who might 
misuse TIA.
    My colleagues at The Heritage Foundation have written extensively 
on the need for reorganization of the congressional committee structure 
to meet the altered circumstances posed by the war on terrorism and the 
formation of the Department of Homeland Security. Oversight of any 
program developed by TIA would most appropriately be given either to 
the committee which, after reorganization, had principal responsibility 
for oversight of that Department or, if TIA is limited to foreign 
intelligence applications, to the two existing intelligence committees.
    Construct TIA to permit review of its activities. To foster the 
requisite oversight and provide the American public with assurances 
that TIA is not being used for inappropriate purposes, the TIA program 
must incorporate, as part of its basic structure, an audit trail system 
that keeps a complete and accurate record of activities conducted using 
the technology. To the maximum extent practical, the audit system 
should be tamper-proof. To the extent it cannot be made tamper-proof, 
it should be structured in a way that makes it evident whenever anyone 
has tampered with the audit system. Only by providing users, overseers, 
and critics with a concrete record of its activity can TIA-developed 
technology reassure all concerned that it is not being misused.
    Limit the scope of activities for which queries of domestic non-
government databases may be used. TIA is a technological response to 
the new, significant threat of terrorism at home and abroad. After 
September 11, no one can doubt that domestic law enforcement and 
foreign intelligence agencies face a new challenge that poses a 
qualitatively greater threat to the American public than any other 
criminal activity.
    U.S. foreign counterintelligence efforts are responding to a new 
and different form of terrorism and espionage. It is appropriate, 
therefore, that the use of TIA to query non-government databases be 
limited to the exigent circumstances that caused it to be necessary. 
Technology being developed for TIA to build models, query and correlate 
data, and uncover potential terrorist activity should be used (whether 
for law enforcement or intelligence purposes) only to investigate 
terrorist, foreign intelligence, or national security activities, and 
the TIA technology should never be used for other criminal activity 
that does not rise to this level.
    It is important to be especially wary of ``mission creep,'' lest 
this new technology become a routine tool in domestic law enforcement. 
It should not be used to fight the improperly named ``war on drugs,'' 
combat violent crime, or address other sundry problems. While certainly 
issues of significant concern, none of these are so grave or important 
as the war on terrorism. Given the bona fide fears of increased 
government power, any systems that might be derived from TIA should be 
used only for investigations where there is substantial reason to 
believe that terrorist-related activity is being perpetrated by 
organizations whose core purpose is domestic terrorism.
    The legislation authorizing TIA should enact this limitation. 
Congress should, therefore, specify that use of the TIA system is 
limited to non-government data inquiries that are certified at a 
sufficiently high and responsible level of government to be necessary 
to accomplish the anti-terrorism objectives of the United States. Only 
if, for example, a Senate-confirmed officer of the Department of 
Justice, Homeland Security, FBI, or CIA (such as an Assistant Attorney 
General or the FBI Director) certifies the objectives of the query 
based upon a showing of need should one be made.
    Limit access to the results of the search. A corollary to the need 
to limit authority to initiate an analysis using TIA is an equivalent 
necessity to limit access to the findings of any resulting analysis. It 
would be unacceptable, for example, for the data and analysis derived 
from a TIA query (or, for that matter, a CAPPS II query), and linked to 
an individual identity, to be available to every Transportation 
Security Administration screener at every airport. Assuredly, after 
high-level analysis substantiated the utility of the information, it 
could be used to create watch lists and other information that can be 
shared appropriately within the responsible agencies. Until that time, 
however, access to the results of a TIA search should be limited by the 
authorizing legislation to a narrow group of analysts and high-level 
officials in those intelligence, counterintelligence, and law 
enforcement agencies.
    Distinguish between use of TIA in examining domestic and foreign 
activities. In practice, it will be possible to use whatever technology 
the TIA program develops to unearth terrorist activity or conduct 
counterintelligence activity both abroad and domestically. Existing law 
places significant restrictions on intelligence and law enforcement 
activity that addresses the conduct of American citizens or occurs on 
American soil. Conversely, fewer restrictions exist for the examination 
of the conduct of non-Americans abroad.
    The development of TIA is not a basis for disturbing this balance 
and changing existing law. Thus, even if Congress ultimately chooses to 
prohibit the implementation of TIA for any domestic law enforcement 
purpose whatsoever (a decision that would be unwise), it would be a 
substantial expansion of existing restrictions on the collection of 
foreign intelligence data were it to extend that prohibition to use of 
the technology with respect to overseas databases containing 
information on non-citizens. At a minimum, in considering TIA, Congress 
should ensure that, consistent with existing law, any program developed 
under TIA will be used in an appropriate manner for foreign 
intelligence and counterintelligence purposes.
    Impose civil and criminal penalties for abuse. Most important, all 
of these various prohibitions must be enforceable. Violations of 
whatever prohibitions Congress enacts should be punishable by the 
executive branch through its administrative authority. Knowing and 
willful violations should be punishable as crimes. These forms of 
strong punishment are a necessary corollary of any TIA authorization.
    In addition, Congress should enlist the third branch of 
government--the courts--to serve as a further check on potential abuse 
of TIA. As is detailed below, the courts will be involved in challenges 
to TIA information requests. To insure effective oversight of the use 
of TIA by the courts, Congress should also authorize a private right of 
civil action for injunctive relief, attorneys' fees, and (perhaps) 
monetary damages by individuals aggrieved by a violation of the 
restrictions Congress imposes.
    Sunset the authorization. Any new law enforcement or intelligence 
system must withstand the test of time; it must be something that the 
American public can live with, since the end of the war on terrorism is 
not immediately in sight. Congress should be cautious, therefore, in 
implementing a new system of unlimited duration. It is far better for 
the initial authorization of TIA to expire after a fixed period of time 
so that Congress may evaluate the results of the research program, its 
costs (both public and private), and its long-term suitability for use 
in America. A sunset provision of five years would be ample time for 
Congress to gather concrete information on the program. With such 
information, Congress will be in a position to continue, modify, or 
terminate the program, as it deems appropriate.
DATA COLLECTION--LEGAL LIMITATIONS
    As I noted earlier, the existing legal structure and the 
overarching principles that I see in American law lead to a singular 
legal recommendation for the structure and operation of TIA:

        TIA should be implemented only in a manner that mirrors 
        existing legal restrictions on the government's ability to 
        access data about private individuals--nothing more and nothing 
        less.

This recommendation may be particularized in the following ways:
    TIA should not have access to protected governmental databases. 
Most government databases (e.g., arrest records and driver's licenses) 
contain information about an individual that is accessible to the 
government and in which the individual has no reasonable expectation of 
privacy. Linking such information through TIA technology should not be 
subject to any greater restriction than that applied to its initial 
inclusion in the local, state, or federal government database from 
which the information is retrieved. By contrast, some existing 
governmental databases (like the Census database) cannot be used for 
purposes other than those for which they were created. Others (like the 
IRS database on taxpayer returns) can be accessed only with a special 
court order.
    In authorizing the development of TIA technology, Congress should 
make it clear that information from existing government databases may 
be queried using TIA structured query programs only to the extent that 
the government already lawfully has access to the data. The creation of 
TIA-based networks should not be viewed as an excuse or opportunity to 
remove existing restrictions on the use of particularly sensitive 
individual data.
    Information from private domestic databases should be accessed only 
after notice to the data holder. A similar limitation should also apply 
to queries made of private, non-government databases from which the 
government seeks information. Where predication for an investigation 
(whether criminal or foreign intelligence) exists, law enforcement or 
intelligence authorities should have the ability to secure data about 
an individual or pattern of conduct from private databases just as they 
do under current law.
    Thus, with appropriate predication and/or court authorization (if 
the law requires), the government should be able to secure data from 
banks, credit card companies, and telephone companies about the conduct 
of specified individuals or about specified classes of transactions. 
But existing warrant and subpoena requirements should not be changed. 
Such data gathering should be done only at the ``retail'' level when a 
particularized basis for investigation exists.
    More important, in each instance where data is sought from a 
private database, the holder of the data should be notified prior to 
securing the data and (as in the context of a subpoena today) have the 
capacity to interpose an objection to the data query to the same extent 
the law currently permits. The law today does not provide a mechanism 
by which such information requests may be made other than by subpoena. 
Thus, in authorizing a TIA-based investigative system, Congress should 
require that any aspects of TIA seeking data from private databases 
should operate in a manner similar to that in contemporary subpoena 
practice.
    As this analysis makes evident, one should strongly oppose any 
effort to incorporate in TIA the ability to gather private database 
information at the ``wholesale'' level (e.g., all bank transactions 
processed by Citibank). One should also strongly oppose any TIA-based 
system that allows access to privately held data without notice to (and 
the opportunity to object by) the data holder. In short, the 
development of TIA technology and the war on terrorism is not a 
justification for the routine incorporation of all private data and 
information in a single government database.
    TIA is not a justification for creating new government databases. 
Given the clear distinction that the law enacts between access to 
government and access to private, non-government databases, a further 
cautionary note is in order. In order to evade the legal strictures 
limiting access to information in private databases, the government 
might be tempted, in effect, to ``institutionalize'' the information it 
deems relevant by enacting new data-reporting requirements to capture 
in government databases information that now exists only in private 
databases to which access is less ready. The first such proposal may 
already have been made: that Americans flying abroad be required to 
provide their travel itineraries to the Transportation Security 
Administration upon their departure from America.
    The expansion of existing government databases should be resisted 
except upon a showing of extraordinary need. The government already 
collects too much information about Americans on a day-to-day basis. 
While many government programs require the collection of such data to 
permit them to operate, one should not create databases where no 
program requiring their creation exists--otherwise, there is the risk 
of wholesale evasion of existing legal restrictions on the use of 
information in private databases. Initiatives such as the new 
itinerary-collection program should be evaluated independently to 
determine their necessity and utility.
    There must be absolute protection for fundamental constitutionally 
protected activity. The gravest fear that most Americans have about TIA 
is that it might be used to transmit queries about and assemble 
dossiers of information on political opponents. One should not discount 
these fears as they rest on all-too-recent abuses of governmental 
power. If a system developed based on TIA technology is used to enable 
an effort to harass anti-war demonstrators or gather information on 
those who are politically opposed to the government's policies (as the 
FBI used its investigative powers to do in the 1960s and 1970s), such 
abuse should be terminated immediately.
    This prospect is not, however, sufficient to warrant a categorical 
rejection of all of the benefits to the war on terrorism that TIA 
technology might provide. TIA can be developed without these abuses, 
and aspects of the technology under investigation in fact hold the 
promise of enhancing civil liberties. Still, it is imperative that any 
implementing legislation has concrete, verifiable safeguards against 
the misuses of TIA. These should include, for example, an absolute 
prohibition on accessing databases relating to support of political 
organizations that propagate ideas--even ones favorable to terrorist 
regimes--absent compelling evidence that the organizations also aid 
terrorist conspirators with monetary, organizational, and other support 
not protected by the First Amendment. There must be an absolute 
prohibition on accessing databases relating solely to political 
activity or protest.
    TIA should build privacy protections into its architecture. 
Finally, it should be recognized that access to data is not necessarily 
equated with a loss of privacy. To be sure, it may in many instances 
amount to the same thing, but it need not. There is, for example, a 
sense in which the automated screening of personal data by computer 
enhances privacy: It reduces the arbitrariness or bias of human 
screening and insures that an individual's privacy will be disrupted by 
human intervention only in suspicious cases.
    In addition, those developing TIA can be required to construct a 
system that initially disaggregates individual identifiers from 
pattern-based information. Only after the pattern is independently 
deemed to warrant further investigation should the individual identity 
be disclosed. So, for example, only after a query on the bulk purchase 
of the precursors of Ricin poison turned up a qualifying series of 
purchases linked to a single individual would the individual's name be 
disclosed to terrorism analysts.
    Thus, everyone on both sides of the discussion should welcome one 
aspect of TIA, the Genisys Privacy Protection program. The Genisys 
program is developing filters and other protections to keep a person's 
identity separate from the data being evaluated for potential terrorist 
threats. In authorizing TIA, Congress should mandate that a trusted 
third party rather than an organization's database administrator 
control these protections.
                      fbi investigative guidelines
    Let me turn now briefly to the new FBI investigative guidelines. 
Many of the principles I have applied to TIA, are equally relevant to 
any consideration of the recent changes in the FBI's investigative 
guidelines. I will not burden the record by repeating my analysis in 
its entirety here.
    There are, however, aspects of the FBI's guidelines that suggest 
the need for heightened sensitivity to the potential for an 
infringement on protected constitutional liberties. As you will 
recognize from my testimony I have generally been supportive of the 
potential inherent in the development of the TIA system. In part, that 
reflects my belief in the benefits of technology. But it also reflects 
my conviction that existing Supreme Court precedent, dating back to the 
1960s, accurately captures the scope of the Constitutional privacy 
protection embodied in the Fourth Amendment: The Constitution affords 
no additional protection to information that an individual has made 
available to other individuals or institutions. Privacy concerns 
relating to the further distribution of such information are matters of 
policy and legislative concern, not constitutional law. Similarly, the 
FBI guidelines raise no Fourth Amendment concerns, insofar as they 
authorize the FBI to collect publicly available information from public 
databases and/or public meetings.
    Protecting Constitutional Liberties. Nonetheless the FBI guidelines 
do implicate potential threats to least two fundamental liberty 
interests guaranteed by the Constitution. Most obviously, the Supreme 
Court has long recognized a freedom of political association and the 
threat to that freedom posed by requiring organizations to identify 
their members. Second, many of the indicators that might be used to 
identify potential subjects of a terrorist investigation are also 
indicators that, in other circumstances, are potentially the products 
of protected First Amendment activity--in other words, though FBI 
investigative techniques are not intended to impinge upon free 
political speech or association, they may have the collateral effect of 
doing so.
    Thus, there is a significant risk that a mal-administered system 
will impinge upon fundamental constitutional liberties. I am not, 
however, one to say that the risk of such impingement means abandonment 
of the program--especially not in light of the potentially disastrous 
consequences of another terrorist attack in the United States. I do, 
however, believe that some fairly stringent steps are necessary to 
provide the requisite safeguards for minimizing inadvertent or abusive 
infringements of civil liberty in the first instance and correcting 
them as expeditiously as possible. Those steps would include some or 
all of the following [many of which mirror recommendations I have 
already made with respect to TIA]:

        <bullet>  The FBI's use of these new investigative guidelines 
        should be subject to extensive, continuous Congressional 
        oversight. By this I do not mean the mere reporting of raw data 
        and numbers--I mean that, at least as a spot check, Congress 
        should examine individual, closed cases (if necessary using 
        confidential procedures to maintain classified status) to 
        assure itself that the investigative guidelines are not being 
        misused. In other words, the database contemplated by the FBI 
        guidelines should, under limited circumstances, be subject to 
        congressional scrutiny;

        <bullet>  Authorization for ``criminal intelligence'' 
        investigations under the FBI's guidelines should, in all 
        circumstances, be in writing such that the FBI's internal 
        system creates an ``audit trail'' for the authorization of 
        investigations with potential First Amendment implications. 
        Only through detailed record keeping can the use and/or abuse 
        of investigative authority be reviewed;

        <bullet>  The FBI's new guidelines generally authorize the use 
        of all lawful investigative techniques for both ``general 
        crimes'' investigations and ``criminal intelligence'' 
        investigations. There should be an especial hesitancy, however, 
        in using the undisclosed participation of an undercover agent 
        or cooperating private individual to examine the conduct of 
        organizations that are exercising core First Amendment rights. 
        When an organization is avowedly political in nature (giving 
        that phrase the broadest definition reasonable) and has as its 
        sole mission the advocacy of a viewpoint or belief, we should 
        be especially leery of ascribing to that organization criminal 
        intent, absent compelling evidence to that effect.

        <bullet>  There should, as well, be a hesitancy in visiting 
        public places and events that are clearly intended to involve 
        the exercise of core First Amendment rights, as the presence of 
        official observers may chill expression. This is not to say 
        that no such activity should ever be permitted--it is, however, 
        to suggest the need for supervisory authorization and careful 
        review before and after the steps are taken. Conversely, 
        existing court consent decrees that expressly prohibit all such 
        activity (as is currently the case in New York City) should be 
        revisited.

        <bullet>  No American should be the subject of a criminal 
        investigation solely on the basis of his exercise of a 
        Constitutionally protected right to dissent. An indication of 
        threat sufficient to warrant investigation should always be 
        based upon significant intelligence suggesting actual criminal 
        or terrorist behavior.

    Privacy. Though the FBI's guidelines authorize preliminary 
inquiries through the use of public information resources many 
Americans fear that these inquiries will result in the creation of 
personalized dossiers on dissenters. As it appears now, there are no 
explicit provisions in the guidelines for the destruction of records 
from preliminary inquiries that produce no evidence sufficient to 
warrant a full-scale investigation. One possible amendment to the 
guidelines that would ameliorate many privacy concerns would be an 
explicit provision providing for such destruction or, archiving with 
limited retrieval authority.
    One other brief point should be made about privacy--in many ways 
the implementation of the FBI guidelines is not an unalloyed diminution 
of privacy. Rather it is the substitution of one privacy intrusion 
(into certain public spheres) for other privacy intrusions (into more 
private spheres, perhaps through other investigative means). It may 
also substitute for increased random investigations or the invidious 
use of racial, national origin, or religious classifications. Here one 
cannot make broad value judgments--each person weighs the utility of 
their own privacy by a different metric. But I do venture to say that 
for many Americans, the price of a little less public privacy might not 
be too great if it resulted in a little more personal privacy.
    Mr. Chairman, thank you for the opportunity to testify before the 
Subcommittee. I look forward to answering any questions you might have.

    Mr. Chabot. Thank you very much. The Members of the 
Committee will now have an opportunity to ask questions of the 
panel for 5 minutes. I recognize myself for 5 minutes.
    Mr. Dinh, I'll start with you. The USA PATRIOT Act requires 
the Government to maintain reports of the configuration of and 
duration of each time a program such as Carnivore is installed 
and any information which has been collected by the device. 
Under what circumstances would a court or a legislative body be 
able to review these reports?
    Mr. Dinh. Mr. Chairman, thank you very much. Section 216 of 
the USA PATRIOT Act does indeed require us to retain such 
information and to make it available to the issuing court 
within 30 days of the termination of the order in the ex parte 
review, for the court to review such information, including 
information relating to how it was used, what information was 
gathered by the device, and ultimately whether or not it was 
successful in gathering such information.
    Mr. Chabot. Okay, thank you. Can you tell us how many 
times, if at all, library records have been accessed under the 
new FISA standards and the USA PATRIOT Act, and if they have 
been so accessed, have the requests been confined to the 
library records of a specified person?
    Mr. Dinh. Mr. Chairman, section 215 of the USA PATRIOT Act 
requires the Department of Justice to submit semi-annual 
reports to this Committee and also to the House Intelligence 
Committee and the Senate counterparts on the number of times 
and the manner in which that section was used in total. We have 
made those reports. Unfortunately, they--because they occur in 
the context of a national-security investigation, that 
information is classified.
    We have made, in light of the recent public information 
concerning visits to library, we have conducted an informal 
survey of the field offices relating to the--its visits to 
library. And I think the result from this informal survey is 
that libraries have been contacted approximately 50 times based 
upon articulable suspicion or calls--voluntary calls from 
librarians regarding suspicious activities. Most if not all of 
these contacts that we have identified were made in the context 
of a criminal investigation and pursuant to voluntary 
disclosure or a grand-jury subpoena in that context.
    Mr. Chabot. It's my understanding that the first FBI 
guidelines and all subsequent guideline changes were adopted 
only after consultation with the House Judiciary Committee. 
What was the reason for breaking that tradition when the 2002 
FBI guidelines were adopted?
    Mr. Dinh. Mr. Chairman, to be perfectly frank with you, I 
do not know the history of consultation or drafting of the 1976 
Levi guidelines or the 1989 Thornburgh revisions or other 
revisions to the guidelines prior to this last round of 
revisions ordered by the Attorney General. I can say that after 
September 11, the Attorney General turned to a group of us, to 
me and the Office of Legal Policy in particular, and asked us 
to conduct a top-to-bottom review of all of our executive, 
administrative, and legislative authorities that are necessary 
to prosecute the global war against terrorism. Part of that 
review resulted in the USA PATRIOT Act, part of that review 
resulted in a number of administrative and regulatory changes, 
and part of that review resulted in the revisions to the 
guidelines and other guidelines. All of this was done very, 
very deliberately, but in a time-sensitive manner, and there 
was not consultation prior to the issuance of those guidelines.
    However, at the conclusion of those revisions, we 
immediately consulted with this Committee and briefed and fully 
explained those guidelines. And we seek whatever wisdom you may 
give to us during this process.
    Mr. Chabot. Thank you. Does the FBI have in place an 
internal process in which track of how many agents have 
attended public events and, and of how many public events have 
been attended by agents?
    Mr. Dinh. Yes and no. In a first cut at the answer, we are 
interested in information relating to criminal and terrorist 
activity. That's why the Attorney General guidelines make clear 
that no information obtained from public visits shall be 
retained unless it relates to criminal and terrorist 
activities. That is the primary information which we track. And 
so in that sense, we do not track general visits as a matter of 
investigative activity, because we're interested in criminal 
investigations, not the ordinary activities of law-abiding 
citizens.
    But there is an administrative control mechanism 
independent of investigative files. Each field office retains 
what we call a control file, which is an administrative file on 
how agents use their time. And in these control files, there 
are logged activities relating to their public visits. And 
those control files are accessible by headquarters or by 
supervising agents in order to determine the pattern and use of 
such visits.
    Mr. Chabot. Thank you. My time has expired. The gentleman 
from New York, Mr. Nadler, is recognized for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Attorney General Dinh, I was interested to hear you say a 
few minutes ago that the number of times that libraries have 
been visited was classified information. The Department claims 
the mere fact as to whether the Department has used various 
authority granted in the PATRIOT Act is classified. The 
question is not when, where, how, or against whom. Is it your 
position that you can't even tell the Committee whether you 
have actually used the particular authority granted in the act?
    You can't tell us--I mean, the libraries know whether 
they've been visited. How does it help the national security--
why should it be classified how many libraries have been 
visited or even which--well, which--how many libraries have 
been visited? How do you suggest we evaluate the authority we 
have given you if you can't even tell us whether you've used 
those authority, how often you've used it?
    Mr. Dinh. That is a very fair question.
    Mr. Nadler. Why should it be classified?
    Mr. Dinh. A very, very fair question. The total number of 
library visits is not classified. As I have said, we've done an 
informal survey and we've ascertained that approximately 50 
library contacts have occurred in the past year. The precise 
use of FISA authorities, Foreign Intelligence Surveillance Act 
authorities, including the authority granted in section 215, is 
classified because they occurred in a national-security 
context.
    Mr. Nadler. By ``the precise,'' you mean against whom? I 
mean, which incidences?
    Mr. Dinh. No, even just the number, the number of FISAs 
used, the number----
    Mr. Nadler. Why should the number be classified?
    Mr. Dinh. That is the determination of the classification 
Committee pursuant to----
    Mr. Nadler. Well, that's nice, but why--what's the reason? 
Why should it be classified?
    Mr. Dinh. If I may--pursuant to Executive Order 12333 and 
the decision of the multi-agency task force----
    Mr. Nadler. Yeah, but what's the reason?
    Mr. Dinh. The reason is fairly straightforward. The amount 
of activity as well as specific number of authorities used give 
an insight as to patterns of intelligence and terrorist 
activities that is known to the United States. If you will 
recall that FISA controls not only terrorists, but also spies. 
And so our ability to know what spy networks are there, what 
terrorist networks are there, the number of those networks----
    Mr. Nadler. And so you're saying--excuse me. So what you're 
saying is that if you told us you've used the FISA authority 
100 times or you've used it 1,000 times, that would tell some 
enemy something useful to them in terrorist activities?
    Mr. Dinh. Yes, sir. If, for example, in year one, in year 
one we said that we have an active number of FISAs that equals 
100, and then in year two we say that that number has now 
changed to 200, that increase signifies an increased interest 
in our intelligence----
    Mr. Nadler. Mr. Dempsey, could you comment on that, please?
    Mr. Dempsey. Glad to, Mr. Nadler. The number of FISAs is 
actually published and known, and we watch how it goes up and 
down from year to year. I think that the information that is 
published could be more detailed than that. Right now, there's 
a broad statement of the number of FISA applications that were 
granted.
    I think in the case of the--going even down as specific as 
the number of times that section 215 has been used in a 
library--I happen to think that number's relatively small--I 
don't think that tells anybody anything. Because in fact, even 
in the case of terrorism investigations, the Government can be 
going in with subpoenas, criminal subpoenas. And so you--
already you've got almost an apples-and-oranges question in 
terms of anybody trying to predict where the Government is or 
to try to evade Government surveillance. I think overall some 
of these numbers can be made publicly available. I think it 
would greatly help the subCommittee.
    Mr. Nadler. Okay, thank you. Mr. Dinh, could you tell us 
what you consider to be the difference between content and not 
con--and non-content information in electronic communications? 
Do you have the technical means to segregate address lines from 
subject lines in an e-mail? How is this done, and how do you 
handle URL addresses?
    Mr. Dinh. Yes, yes, and that's a hard question. We consider 
non-content to be the To and From. The subject line is content. 
The--we have specified programs that are very precise in their 
parameters of what they will take and what they will not take. 
Congress recognized the existence of these programs by--when it 
enacted section 215, by requiring the Department to use the 
best available means in order to minimize non-content or 
excessive, or excessive take. With respect to URLs, the Deputy 
Attorney General has issued a memorandum, which has been 
provided to this Committee, on the use of post-cut-through 
intercepts in the analog world, and also content information in 
the digital world.
    Mr. Nadler. I'd like Mr. Dempsey to comment on the same 
questions.
    Mr. Dempsey. Well, I really think that the--we shouldn't 
overlook the main question, which is the inadequacy of the pen 
register standard right now. As Professor Kerr has referred to, 
that right now these orders are issued, that the statute says 
that the judge ``shall'' issues the order. The judge is 
required to issue the order if the Government asks for it. No 
factual showing, no----
    Mr. Nadler. The judge has no discretion?
    Mr. Dempsey. Absolutely no discretion.
    Mr. Nadler. Does the Government have to show something to 
the judge to----
    Mr. Dempsey. It has to show him a piece of paper signed by 
a prosecutor saying this is relevant to an investigation. The 
court cannot in fact ask, ``Is it relevant?'' If the 
Government----
    Mr. Nadler. Should we amend that?
    Mr. Dempsey. Well----
    Mr. Chabot. The gentleman's time has expired, but you can 
answer the question.
    Mr. Dempsey. This Subcommittee and the full Committee in 
the 106th Congress approved legislation along the lines 
discussed by Professor Kerr that would require some minimal 
factual showing and some role for the judge, some actual 
finding by the judge that that information would be relevant to 
a criminal investigation.
    Mr. Chabot. The gentleman's time----
    Mr. Nadler. That was superior to what you think is--you 
think that's superior to what's in the PATRIOT Act?
    Mr. Dempsey. Absolutely.
    Mr. Nadler. Thank you.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Tennessee, Mr. Jenkins, is recognized for 5 minutes.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Rosenzweig, you mentioned something that I've said many 
times in a little different way. But in my experience as a 
State legislator and here in the Congress, I've found that 
people who are separated greatly on the political spectrum, 
those people who call themselves very liberal and those people 
who call themselves very conservative----
    Mr. Chabot. Can you pull your mike, please, to----
    Mr. Jenkins.--are much more likely to have greater accord 
when they have before them under consideration constitutional 
issues in general, and especially Fourth Amendment issues. And 
that's what, that's what you were saying. And I, I wonder if 
the other members of this panel also believe that to be true.
    Mr. Dinh. Yes, sir, the common bond that binds us is our 
U.S. Constitution and the procedures set forth thereunder.
    Mr. Jenkins. And I have--Professor Kerr, do you believe 
that's the case?
    Mr. Kerr. I think there's, you know, widespread consensus 
that the Fourth Amendment is a vitally important constitutional 
protection. In terms of the politics, if that's more the 
question, there is--a rough cut could be that it tends 
sometimes to be the ends against the middle in these issues. 
But that's, of course, a pretty rough----
    Mr. Jenkins. Well, this gives me a lot of confidence that 
this situation is not going to get out of hand, at least 
anywhere in the near future.
    Another thing that nobody has mentioned here is the 
permanency of these provisions. Nobody has mentioned that with 
respect to, not all, but some of the these, there is a definite 
life to these provisions. It's, under the statute, what, 4 
years for most? And does that not--is--does not, that not 
lessen the threat that some people fear? And any of you who 
would like to comment on that, let us know what you think about 
the sunset provisions, aspects of these provisions.
    Mr. Dempsey. Congressman, I think that the sunset provision 
was in fact an important provision of the PATRIOT Act. I think 
that this hearing is part of the process of Congress deciding 
whether to reauthorize those provisions or whether to 
reauthorize them subject to better checks and balances.
    I think, though, that a number of the things that we're 
talking about today and a number of the issues of concern to 
this Subcommittee do not arise under the PATRIOT Act and are 
not subject to the sunset. So the Subcommittee and the Congress 
is going to have to look at those as well. I think the FBI 
guidelines is one of those. I think the use of FISA, Foreign 
Intelligence Surveillance Act, information in criminal cases, 
that provision, I think, does not sunset, and that is an issue 
that will remain, that needs to be addressed. I think the pen 
register authority and what that should be needs to be 
addressed. The use of data mining technology is taking place, 
really, outside of the PATRIOT Act, and standards and 
guidelines need to be established before that is implemented.
    So the sunset, I think, is a symbol of Congress's 
responsibility. But mere up or down on the sunset doesn't, 
doesn't end the debate.
    Mr. Jenkins. All right. Anybody else have a thought?
    Mr. Rosenzweig. I'm a firm believer in the sunset 
provisions in this and other laws that relate to civil 
liberties, because to my mind, the fundamental check on 
executive excess which may or may not arise, but in preventing 
it, is the continued conscientious, nonpartisan engagement of 
Congress in oversight. And the sunset provisions are a way of 
ensuring that the institutional barriers that live in this 
institution that prevent activity sometime are overcome, in a 
sense binding yourselves to detailed, thoughtful oversight 
because of the impending sunset deadline. I think it's a great 
idea.
    Mr. Jenkins. Anybody else? Mr. Chairman, that's all the 
questions I have.
    Mr. Chabot. Thank the gentleman. The gentleman's time has 
expired. The gentleman from Virginia, Mr. Scott, is recognized 
for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Dinh, is it the Administration's position that if the 
Secretary of Defense designates someone as a guilty foreign 
terrorist, that that person can be held indefinitely, no 
charges, no counsel, no judicial review? Is that the 
Administration's position?
    Mr. Dinh. Mr. Congressman, as you know, those cases, both 
in the 4th Circuit with Yaser Hamdi and the 2nd Circuit with 
Jose Padilla, are currently under litigation, so I'm somewhat 
limited in my ability to answer. I can say that in that 
litigation----
    Mr. Scott. In a public document, did not the Administration 
take the position that after the Department of Defense 
designated somebody as a guilty terrorist, that the judicial 
branch ought to just butt out?
    Mr. Dinh. No, not exactly. The designation in Jose Padilla 
was made personally by the President of the United States as an 
unlawful enemy combattant, not necessarily guilty terrorist, 
but as an unlawful enemy combattant. That designation does in 
no way close the court house door to the combattant to 
challenge his detention. As a matter of fact, the courts are 
assessing----
    Mr. Scott. Are you saying that the Administration took the 
position that the--Hamdi could in fact contest his designation 
in court, or was that what Judge Wilkinson made you do?
    Mr. Dinh. No, sir, what I'm saying is that the court house 
doors remain open in a habeas proceeding for Mr. Hamdi or Mr. 
Padilla in order to challenge his detention. And in the course 
of that habeas petition proceeding is how these issues are 
being resolved. It just so happens that the law and the facts--
--
    Mr. Scott. Okay, let me be clear. It's your position that 
the Administration took the position that Mr. Hamdi had access 
to habeas corpus proceedings in court?
    Mr. Dinh. Let me put it this way. The President, has not 
suspended habeas corpus, as you--as we all know. And the court 
house door is open to all persons who----
    Mr. Scott. And if I showed you a brief that said that the 
Administration position was that there was no habeas corpus 
available after the designation, you wouldn't know where that 
came from, would you?
    Mr. Dinh. Well, sir, there is a difference. There is a 
difference between the ability to present a habeas proceeding 
petition and whether or not that petition is entertainable by 
the court or has any merit on the law. The latter question, 
which I am addressing, is a matter that the court has issue. 
The former question is the one that I think, in specific answer 
to the question, we have not closed court house doors to 
present a habeas petition.
    Mr. Scott. I'd ask unanimous consent that the staff obtain 
the Administration brief in the Hamdi case so that we can get 
the exact language. I think it would be inconsistent with 
what----
    Mr. Nadler. Will the gentleman yield for a second?
    Mr. Scott. I'll yield.
    Mr. Nadler. The exact language was that once the President 
has designated someone an enemy--an unlawful combattant, the 
courts have no jurisdiction--no jurisdiction--to question that 
determination.
    Mr. Scott. Well, reclaiming my time, I'd tell the gentleman 
from New York that's not what I just heard.
    Mr. Nadler. I know it's not what you just heard. But it is 
the truth.
    Mr. Dinh. Let me be very, very clear. As I said, there are 
two separate questions here. One, whether or not the court 
house remains open to present a habeas petition; and two, 
whether or not that habeas petition, for jurisdictional or 
substantive reasons, has any merit.
    Mr. Scott. Not merit, but--well----
    Mr. Dinh. In answer to your question----
    Mr. Scott. Well, Mr. Hamdi was--well, we'll get the exact 
language and we'll see how the language of the brief comports 
with what you just said.
    Is it--you mentioned the Levi guidelines. What is the 
change--has there been a change in FBI guidelines in terms of 
when you can start investigating--gathering information on 
people? The old guidelines used to require an underlying 
investigation before you started spying on people. Has that 
changed?
    Mr. Dinh. Under the old guidelines and in the new 
guidelines, the level of predication--initial checking out of 
leads, a preliminary investigation, or a full investigation--
remains the same. What has changed is that the Attorney 
General, under Part VI of the new guidelines, adds this 
provision, and I quote: ``For the purpose of detecting or 
preventing terrorist activities the FBI is authorized to visit 
any place and attend any event that is open to the public on 
the same terms and conditions as members of the public 
generally. No information obtained from such visits shall be 
retained unless it relates to potential criminal or terrorist 
activity.''
    Mr. Scott. Is that a change from what we had before?
    Mr. Dinh. That is a change from what we had before. Prior 
to that change, FBI agents were not able to stand on street 
corners and see whether crimes had been committed. They were 
not able to go on the Internet in order to search whether or 
not smallpox is a threat. They had to do so only after they 
were picking up the rubble of the last terrorist attack.
    Mr. Scott. Mr. Dempsey, if----
    Mr. Chabot. The gentleman's time has expired, but gentleman 
can ask his question.
    Mr. Scott. I was going to ask if the--you have one of these 
database sweeps, who gets to look at the information? Thank 
you, Mr. Chairman.
    Mr. Dempsey. Well, those are the rules that are not spelled 
out at all. Now, are you talking here about, as a follow-up to 
Mr. Dinh's comments about use of the Internet by FBI agents or 
by--are you talking about data mining issues?
    Mr. Scott. Data mining.
    Mr. Dempsey. Well, on the data mining issue, which is this 
use of the publicly available or commercial databases, we 
really don't know who gets to look at it, who they get to share 
it with, how long they can keep it, what the standards for 
accuracy are, who approves the search, who approves the sort of 
algorithm that is used to mine this data, who it can be 
disclosed to, how it can be characterized.
    Mr. Scott. What about library books, library check-outs? 
Who gets to look at that information?
    Mr. Dempsey. Well, once information is collected, 
particularly under the PATRIOT Act, it can be widely shared 
throughout the Government, almost without limitation.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Iowa, Mr. King, is recognized for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Mr. Dinh, as I listened 
to you read that section, how it authorizes agents to go in any 
public gathering and gather such information as is available to 
the public, and that no information shall be retained unless it 
relates to criminal activity, how is that determination made on 
what is criminal activity?
    Mr. Dinh. Thank you for the question, Congressman. The 
determination is made by the agent initially and then approved 
by the supervisor, as in the normal course of any 
investigation.
    Mr. King. And then might it be retained if it potentially 
relates to potential criminal activity?
    Mr. Dinh. Yes, sir. What happens is that the agent would 
open a file, either a preliminary investigation or a full 
investigation based upon that indication of criminal or 
terrorist activity, and that file would remain open until the 
prosecution is brought or the investigation complete without 
charges.
    Mr. King. So, for example, if an agent went into a mosque 
and tape recorded a sermon in there and if some of the contents 
of that would have included some I'll say, inflammatory 
rhetoric, could that be something that could be compiled as 
potentially useful in a criminal investigation?
    Mr. Dinh. I think inflammatory rhetoric itself would not 
suffice, simply because one, not only is there an inadequacy of 
criminal activity, but more importantly there is a special 
sensitivity to the exercise of First Amendment rights. That 
agent conducting a public visit, first of all, would, under the 
guidelines, not be able to turn on the tape recorder. He would 
have to just simply observe on the same terms and conditions as 
the public, and only when there is an indication of criminal 
activity would he be able to pursue other investigative 
avenues, including surreptitious recording.
    Mr. King. If they happened to be in a State that allowed 
for third-party tape recording, could they utilize that?
    Mr. Dinh. The utilization of surreptitious recording 
depends not on the laws of the State but the special procedures 
of the Department. Where it is a highly sensitive 
investigation, special sensitivity such as of a religious or 
political institution, there are special procedures in place in 
order to govern those sensitive activities, including 
ultimately review in certain cases by an undercover review 
committee.
    Mr. King. So in a case like Iowa, where if you and I are 
having a conversation, I can tape record that conversation? 
Would your guidelines prohibit that type of activity within 
Iowa?
    Mr. Dinh. The guidelines themselves would not prohibit it, 
but other--other administrative--and a memorandum governing the 
activity, the FBI may well have an
    implication on it.
    Mr. King. So then at some point, if this--if we're going to 
compile a sense of intelligence about what might be going on 
domestically with regard to subversive activities, we may have 
to rely on third-party investigators, good citizens that 
utilize existing laws in a way that exceeds your ability to do 
so?
    Mr. Dinh. Certainly, informants have always been, and good 
citizens and good samaritans have always been a source of 
information investigative activity, as long as they do not act 
at the direction of FBI agents or under the authority of the 
United States Government. But independent of that, the Attorney 
General's guidelines liberate the ability of FBI agents to do 
what ordinary police, State and local police can do--that is, 
to identify threats on the same terms and conditions as members 
of the public generally.
    Mr. King. So if an interested person would then compile the 
text of, I'll say a series of meetings that advocated, without 
being, without being, without, I'll without leading toward 
violence but made those advocations, is that something that the 
Department could utilize?
    Mr. Dinh. As long as it was done not under the direction of 
or under the supervision or behest of the Government, there's 
nothing prohibiting us from getting such manna from heaven, as 
it were.
    Mr. King. And in fact, if there were a Web page that 
gathered that kind of information and posted it, it would be 
something that would be available to your Department?
    Mr. Dinh. Yes, and it would be as long as the Web page is 
publicly available, available to the FBI agents to search.
    Mr. King. Thank you, Mr. Dinh. Mr. Dempsey, you know, as I 
read your testimony, I'm just unclear as to your position, the 
portion where it says now FBI agents can apparently wander down 
the street and visit mosques or political meetings like anyone 
else, on a whim.
    Am I to understand that you're opposed to that ``on a 
whim'' portion?
    Mr. Dempsey. Yes. I believe that mosques and other 
political activities or religious activities are not off-
limits, but that there has to be some direction and guidance 
for FBI agents. Of all the mosques in the country, of all the 
political meetings, which ones do they go into? The Attorney 
General and, today, the Assistant Attorney General has 
repeatedly stated that FBI agents can do whatever members of 
the public can do, which is you walk down the street and say 
there's an interesting building, let me go in. Or you say--walk 
down the street and do it on a discriminatory basis, or do it 
on an arbitrary basis. I think that's a terrible allocation of 
resources.
    I think also it does have a chilling effect. I think that 
an FBI agent is not an ordinary member of the public. He's not 
there as an ordinary member of the public. He's there 
specifically for a purpose. And unless that purpose is guided 
by the effort to collect information about potential terrorist 
activity, then I don't think he should be there.
    Mr. Chabot. The gentleman's time has expired.
    Mr. King. I appreciate your position on that. And thank 
you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman from North Carolina is 
recognized for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Dinh, there have been posted in the Internet for some 
time something called PATRIOT II. Are you familiar with that?
    Mr. Dinh. I think on January 23 of this year the Center for 
Public Integrity did put up an unauthorized release of 
something and that was draft legislation purportedly from the 
Department of Justice. We do not----
    Mr. Watt. Who did you say put it up?
    Mr. Dinh. The Center for Public Integrity.
    Mr. Watt. And was that, was that a paper that originated in 
the Justice Department?
    Mr. Dinh. From all indications, yes, sir, it was a paper 
that was originated in and from the Justice Department. 
However, as we have made clear and as the Attorney General has 
made clear before the full Committee, that draft was exactly 
that: a draft that was still under the deliberative process, 
which was somewhat circumvented by the premature and 
unauthorized release of it.
    Mr. Watt. And is the drafting process continually within 
the Department of Justice?
    Mr. Dinh. We are continuing trying to assess the way we do 
our business, because we know from specific evidence 
intercepted from communications of terrorist cells that they 
are watching us and evading our ability to prevent terrorist 
attacks. And so we're always thinking about new ways to do 
things effectively, and they include legislative proposals, 
executive amendments. I cannot say whether or if a specific 
legislative proposal will be made by the President, because 
ultimately it would have to be cleared through the 
Administration before any such proposals would be cleared. But 
we're constantly thinking about suggestions on how to improve 
our laws.
    Mr. Watt. Have you eliminated from consideration any of the 
provisions that were posted on the Internet in that draft?
    Mr. Dinh. I'm sure we have, because as I said, it was a 
draft, it was a preliminary draft, that----
    Mr. Watt. Which ones have you eliminated?
    Mr. Dinh. I cannot say with specificity, nor would I be at 
a position in order to identify those without going into more 
infringements of the deliberative process. I can say that it 
was a preliminary draft and so of course things will be added 
in and things will drop out. And indeed, decisions will----
    Mr. Watt. Well, right now I'm trying to figure out which 
ones are being dropped out.
    Mr. Dinh. Frankly, if I was to answer your question, I 
would be engaging in the exercise of boxing against shadows, 
because I would not know which is in and which is out because 
the deliberative process is one that is continually evolving. 
And until we have a final draft that is approved by the 
Administration and the Attorney General, I would not be at 
liberty to discuss any specific provisions.
    Mr. Watt. You're part of that ongoing process?
    Mr. Dinh. Yes, I am part of that ongoing process, as well 
as a number of people within the Department of Justice and 
elsewhere.
    Mr. Watt. Let me ask this question, Mr. Dinh. What things 
have you found from your own experience that you believe are 
not currently authorized in PATRIOT, the PATRIOT Act, that you 
believe should be being considered whether they get proposed or 
not?
    Mr. Dinh. I guess the safest way for me to answer that 
question is to refer back to the January 19 Center for Public 
Integrity draft. And that draft, as it is public, includes a 
provision which amends the FISA statute to take care of the 
Moussaoui problem, the so-called ``lone wolf'' fix. Senator Kyl 
and Senator Schumer in the United States Senate have proposed a 
similar measure, and that is a measure that the Administration 
has endorsed. And that's another example.
    Mr. Watt. How would that work?
    Mr. Dinh. Right now, in order to be subject to the FISA 
regime as opposed to the criminal surveillance, you would have 
to be an agent of a foreign power. And a foreign power is 
defined to include foreign nations, obviously, but also 
international terrorist groups. At a beginning of an 
investigation, as was the case with Moussaoui, we do not know 
whether Mr. Moussaoui was acting on behalf of a--in connection 
with a terrorist group or alone. We now obviously know, or at 
least we are--we present evidence and allege that he was part 
of an international conspiracy. At the beginning of an 
investigation, that bill would allow FISA be used even if there 
were no specific connection to an international terrorist 
group.
    Mr. Watt. So in effect that would allow the U.S. Government 
to go after any individual anywhere in the world, whether they 
were acting independently or on behalf of another nation?
    Mr. Dinh. Not any individual, not anywhere around the 
world. It does allow the Government to go after lone-wolf 
terrorists and spies, because the damage done by a single 
person can be as devastating as----
    Mr. Watt. I don't mean to be semantic, but is there some 
difference between a lone wolf and any individual who might be 
engaging in some kind of----
    Mr. Chabot. The gentleman's time has expired, but the 
gentleman can answer the question.
    Mr. Dinh. Yes, sir, thank you very much, Mr. Chairman, for 
the accommodation. First of all, the amendment in the Kyl-
Schumer bill only applies to non-U.S. persons, and so it's----
    Mr. Watt. To?
    Mr. Dinh. Non-U.S. persons. And so it would take out a 
majority of the population within the United States. Also, that 
person would have to be engaging in terrorist activity, 
international terrorist activity as defined by statute or 
intelligence.
    Mr. Watt. So whoever you all say is a lone wolf is a lone 
wolf----
    Mr. Dinh. No, sir, not in----
    Mr. Watt.--as opposed to just anybody?
    Mr. Dinh. No, there is judicial supervision of application 
of the standards. In order to engage international terrorist 
activity, you have to knowingly engage in certain activities 
that is in violation of the laws of the United States and also 
with the intent to coerce and intimidate governmental policy. 
In order to engage in clandestine intelligence activities, you 
have to knowingly engage in activities that violate the laws of 
the United States and also to--relating to intelligence 
collection. So it's not just anybody doing anything. It's very 
particularized, subject to approval by judges who are article 
III judges.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Florida, Mr. Feeney, is recognized for 5 minutes.
    Mr. Feeney. Thank you, Mr. Chairman. Mr. Dinh, in the first 
place, the two individuals that you were just being--the cases 
that you were being asked about a little bit earlier with the--
with respect to the Department of Defense designation, were 
those U.S. citizens that were so designated?
    Mr. Dinh. Both, sir. Mr. Hamdi was a U.S. citizen who was 
captured on the battlefield in Afghanistan. Mr. Jose Padilla is 
a U.S. citizen who was captured in the Chicago O'Hare Airport, 
and our evidence indicates--and this was made in an affidavit 
submitted in court--indicates that he came to the airport with 
the intention of detonating a dirty bomb in the vicinity.
    Mr. Feeney. I appreciate that. I'm also interested in 
whether or not there's anything in the PATRIOT Act or any other 
aspect of Federal law that would permit any of the Executive 
Branch offices to designate an individual U.S. citizen in such 
a way that that individual would lose any of their otherwise 
protected freedoms under the Constitution or the Bill of 
Rights.
    Mr. Dinh. No, sir, nothing in the laws or specifically in 
the United States--or in the USA PATRIOT Act. As our pleadings 
make clear, the President was acting under his authority, his 
executive authority as commander in chief.
    Mr. Feeney. And there are exceptions under article I, 
section 9 in terms of suspending habeas corpus, is that right? 
I think invasion of the public safety and domestic rebellion, 
or----
    Mr. Dinh. Yes, sir, you are absolutely correct. And those 
are the provisions that President Lincoln relied upon in order 
to suspend habeas corpus and declare martial law during the 
Civil War. And this is in answer to Mr. Scott's earlier 
question, that the President obviously has not made such a 
determination nor does he have intent, present intent to do so.
    Mr. Feeney. Well, even if we are under a current rebellion 
or invasion of the public safety, other than habeas corpus, I'm 
not aware of any other rights that any U.S. citizen may be 
forced to forfeit as a consequence of such a designation.
    Mr. Dinh. Nor am I, sir, just the great writ of habeas 
corpus is the specific suspension clause.
    Mr. Feeney. Well, and Professor Kerr, I guess other big 
portion of the Constitution we've talked about today would be 
the Fourth Amendment. And of course the proscription against 
searches or seizures is against--is limited; it's against 
unreasonable searches and seizures. And so maybe you could 
describe briefly for me the way the Court has evolved during 
certain periods of national crisis with protecting the right of 
individuals not to be unreasonably subject to searches or 
seizures, and how that has been affected and how those Court 
precedents may affect the situation we're in today, where the 
terror threats are at an all-time high.
    Mr. Kerr. Of course. There's been an evolution in the 
Supreme Court's jurisprudence in the Fourth Amendment over 
time. The general explanation which the cases support is that 
originally the Fourth Amendment was very concerned with 
protecting property rights, and in sort of moving through the 
1960's and, really, in the Katz v. United States case, moving 
toward more of a privacy-protecting approach.
    At the same time, the Supreme Court has been more 
deferential in the context of wartime, for example, or 
especially in the area of national security, than in criminal 
investigations. So for example, in the Keith case in 1978, I 
believe, the Supreme Court recognized that the Fourth Amendment 
did apply in domestic national security related cases, but 
suggested that Congress could carve out a new set of rules 
which might be different from the traditional Fourth Amendment 
standards that would apply in criminal cases.
    So the Court has been, I think, fairly pragmatic in this 
area and suggested that it's really up to a question of what is 
the threat, what are the reasonable steps that can be taken in 
response to it? But at the same time, it is a fairly unclear 
area of law. The Court has not had that many opportunities to 
step in and clarify the rules.
    Mr. Feeney. Well, thank you. And finally, Mr. Rosenzweig, I 
think a lot of the panel members and the Members have voiced 
support for the notion that we've got some 4-year sunset 
provisions on a lot of the applications. Maybe because I'm 
familiar with the Heritage's philosophy and tend to endorse it 
on most issues, maybe my experience at the State level may be 
relevant, because I used to believe I was for sunsetting every 
part of the chapter and code in the statute book. But what I 
found was that every interested party and group in the world, 
when they were aware that that sunset was coming up, and we 
were able on a routine basis to turn about three pages of the 
statutes into 203 pages by the time we were done sunsetting 
provisions. So we may get what we asked for on this one.
    Mr. Rosenzweig. I would not support sunsetting every 
provision of every law, for precisely the same reasons that 
you've just alluded to, that it gives us the opportunity for a 
big Christmas tree to be grown in the midst of Congress. In the 
context, however, of this vital issue, the balance between 
civil liberty and national security, one that I think is, 
frankly, the most important legal issue, domestic legal issue 
facing this Congress this year--more important than Medicare, 
more important than Social Security. The importance of getting 
it right and the importance of keeping Congress engaged is, in 
my judgment, sufficiently great that artificial mechanisms like 
the sunset are, I think, to be used cautiously, judiciously. 
Also, to be candid, I think on this type of provision, there's 
pretty unlikely there are going to be a lot of Christmas trees. 
As Patriot--as the next PATRIOT Act goes through, nobody's 
going to put a tax break on--I hope.
    Mr. Feeney. Well, but you just heard PATRIOT II described 
by one of my colleagues----
    Mr. Chabot. The gentleman's time has expired. The 
gentlelady from Texas, Ms. Jackson Lee, who is a Member of the 
full Committee but not a Member of this Committee, has asked 
for 2 or 3 minutes to ask questions. She's assured me she'll 
stay within that time. If there's no objection, I will grant 
the lady two and a half minutes, and as long as she'll stay 
within that time, we will grant her that. Are there any 
objections?
    [No response.]
    Mr. Chabot. If not, the gentlelady is granted that time.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And I 
know that your monitoring the clock will help me.
    I thank the witnesses very much. And with this time, I need 
simply to make some comments and requests as well. I'm 
gratified that the statement of the Chairman recites the Fourth 
Amendment provides that the right of the people to be in secure 
in their persons, houses, papers, and effects against 
unreasonable searches and seizures and that it should not be 
violated. Let me get on the record my opposition to any PATRIOT 
II without a full hearing and briefing and an assessment and an 
accounting on the impact of PATRIOT I, particularly if there 
are far reaches and expansion and--under--and an undermining of 
the Fourth Amendment.
    Might I remind my friends and colleagues of Ruby Ridge and 
Waco. These are incidences that occurred before 9/11, and I 
think it's important to know that this is a far-reaching issue. 
Beyond immigrants and beyond Arab--the Arab community and 
Muslim community, this is an American question of whether or 
not our constitutional rights have been infringed upon.
    Secondly, let me raise a question that's pertinent to 
Texas, and thank the Justice Department for responding quickly 
to my question as to whether or not there was any criminal 
violation by the 55 legislators who went to Ardmore and other 
places in Texas. A letter came back, and I'm very grateful for 
that, indicating there was no Federal question or Federal need 
for intervention. The DOJ did not see that need.
    In light of that, I would appreciate it greatly, as we are 
asking the Homeland Security provide us with all tapes, and we 
have seen that the Inspector General has recused himself and 
another person investigating, I'm making an official request 
that the DOD do a separate investigation with respect to the 
question of whether the Republican Party, the majority leader, 
or any person employed by them or acting on their behalf 
contact the Department of Justice or the Department of Homeland 
Security or any agency acting under their auspices seeking the 
assistance of a Federal agency resources to locate any 
Democratic member of the Texas State legislature.
    Again, I believe this ties into our inquiries today. And I 
would appreciate whether or not you would give a response to 
the fact that any action by the Texas legislature was a 
detriment to the public and whether or not the public's civil 
liberties were in question if that occurred.
    Lastly, Mr. Chairman, so that I can keep within the time 
frame----
    Mr. Chabot. The gentlelady's time has expired and the 
gentlelady's request has been duly noted.
    Ms. Jackson Lee. Thank you. And I'll provide the others in 
writing. I thank you very much, Mr. Chairman, for the time.
    Mr. Chabot. Thank you. The gentleman from New York has also 
asked unanimous consent to ask one additional question, and if 
there's no objection, the gentleman is granted that.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me say the following first, then ask my question. In 
discussion with Mr. Scott some of his questions--I'm sorry, 
with Mr. Watt, his questions--or no, it was Mr. Scott. I'm 
getting confused here. You were discussing the Administration's 
position in the Hamdi and Padilla cases. And the fact is--the 
fact is that the Administration took the position, and if you 
look at your brief you'll see it, that when the President or 
the Department of Defense has designated an American citizen or 
anyone else an enemy combattant, the courts have no 
jurisdiction, no jurisdiction, to question that designation. 
The courts have not agreed with that, but that's the 
Administration's position. And that's a claim of power, a claim 
that habeas corpus doesn't exist, that nothing exists, that the 
President in that decision is all-powerful, that nobody, until 
that brief, had made in an English-speaking jurisdiction--
before Magna Carta. And I would point out that this country 
rebelled against Great Britain for tyrannical assertions far 
less grievous than that.
    My question, however, is on a different--and that's the 
record, if you look at the brief of the Justice Department. 
There's no question. In saying that habeas corpus exists, it 
only exists because the court didn't agree with the 
Administration.
    My question is the following. Getting back to FISA, the 
whole point of FISA is that the Fourth Amendment says you can't 
search--you can't issue a search warrant, basically, unless 
there's probable cause to believe that a crime was committed, 
or maybe it had to be committed. FISA, however, says wait a 
minute, when you're dealing with foreign intelligence agents 
and you're not talking about a criminal prosecution but 
fighting an intelligence war with the Soviet Union or al Qaeda 
whoever, you shouldn't adhere to that standard. The PATRIOT Act 
comes along and says--and that's for a foreign intelligence 
investigation. The PATRIOT Act comes along and says that, well, 
you can adhere to a lesser standard than the Fourth Amendment 
requires if foreign intelligence is a significant purpose--not 
the only purpose or the main purpose, but a significant 
purpose. The Department, in its answers to various questions of 
this Committee, has said that they've used various of these 
powers on drug cases and other cases.
    My question is, if you are allowing use of FISA standards, 
which is less than Fourth Amendment standards, for questions 
which aren't really foreign amendment--foreign intelligence, 
but for crimes, what is left of the Fourth Amendment?
    Mr. Dinh. You ask a very good question. I would like to 
discuss that in detail----
    Mr. Nadler. And--excuse me, let me just say--and how can we 
do that constitutionally and say the crimes can be--criminal 
investigations, even if there's some foreign intelligence 
thing, can be governed by a less-than-Fourth-Amendment 
standard? Whatever you decide the Fourth Amendment means, how 
can you say it's governed by less than the Fourth Amendment?
    Mr. Dinh. I completely understand. With respect, Mr. 
Congressman, I am advised that in the Hamdi case, we did not 
move to dismiss the habeas petition, but simply argued that the 
designation was conclusive, consistent with Ex Parte Qurin. In 
Padilla, we did make a----
    Mr. Nadler. And--excuse me--and if--go ahead.
    Mr. Dinh. In Padilla, we did make a motion to dismiss for 
lack of personal jurisdiction because we thought that Mr. 
Padilla, who was being held in South Carolina, venue was in 
South Carolina.
    Mr. Nadler. Well, forget the venue. But even your first 
thing, if you say the court lacks jurisdiction, then there can 
be no habeas.
    Mr. Dinh. No, sir, we did not move to dismiss on lack of 
jurisdiction. We argued that under the law, Ex Parte Quirin in 
particular, the designation as enemy combattant is conclusive 
upon the----
    Mr. Nadler. Excuse me, the designation is conclusive; 
therefore there is no habeas corpus or anything else. The 
designation----
    Mr. Dinh. No, here's----
    Mr. Nadler. Wait a minute. The designation is con--if you 
say the designation is conclusive, and once that designation is 
conclusive, then there is no right to habeas corpus, correct?
    Mr. Dinh. We are in agreement in all but characterization. 
Habeas petition exists, he can present all his arguments legal 
and factual. It just so happens that under the law, his habeas 
argument is not worth very much. The habeas petition would be 
dismissed not for want of jurisdiction, but for want of 
substance.
    Mr. Nadler. I find that, frankly--what's the word I'm 
looking for?--sophistry.
    Mr. Dempsey. All he's saying is, is that the President 
declares that you're an enemy combattant, the facts of the law 
do not matter after that, that the only law that matters is 
their reading of the law that the President can do this.
    Mr. Dinh. No, the law as interpreted by the Supreme Court 
is the law that the court applied in this case and in all other 
habeas cases, and it just so happens that the----
    Mr. Nadler. Is that what they said in Quirin? That's not--
but in other words, what you're saying is once the President 
decides that you're an enemy combattant, you can make a motion 
to habeas corpus but it doesn't matter what the facts are and 
it doesn't matter what the law is. The designation is 
conclusive and----
    Mr. Dinh. It absolutely matters what the law is. And the 
law is that----
    Mr. Nadler. That you have not right----
    Mr. Dinh.--the President is due substantial deference, 
because courts are an imperfect place to make these kinds of 
judgments that the Executive made.
    With respect to your FISA question, it is an extremely 
important question, a very good constitutional question. As you 
know, FISA was adopted by Congress in response to the Keith 
decision that Professor Kerr has elucidated before. It governs 
very, very strictly the conduct of counter-intelligence and 
intelligence and it has very specific procedures that govern 
the use of such information in a subsequent criminal 
proceeding. For example, before FISA-derived information can be 
used ``before any court, department, officer, agency, 
regulatory body or other authority of the United States,'' 
notice has to be given to the interested party, that is, the 
person who is the defendant. That party then has the ability to 
file a motion to suppress or to discover such information 
underlying the FISA application. Under those proceedings are 
when the arguments of Fourth Amendment would be aired in the 
subsequent use.
    The reason why this system exists and is fully 
constitutional is that the Court, in Keith and in other cases, 
has held that the warrant requirement, that is, the warrant of 
probable-cause, the requirement of the Fourth Amendment, does 
not apply to these orders, but rather reasonableness applies. 
And as the court of FISA review made clear, that standard of 
reasonableness differs from the probable cause requirement of 
the warrant clause of the Fourth Amendment.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Nadler. I thank the Chairman for his courtesy and 
indulgence.
    Mr. Chabot. The Chairman duly notes that. A request has 
been made--the gentleman over here, Mr. King, would like to ask 
some questions in light of the gentleman--I don't want to open 
this up for a whole second round, but Mr. Schiff has come in, 
and as a compromise, I would let Mr. Schiff also ask questions 
after Mr. King. But I really don't want to go into an entire 
second round.
    The gentleman from Iowa is recognized for his question.
    Mr. King. Thank you, Mr. Chairman. And I wouldn't raise 
this issue if it hadn't been raised in this hearing. But it has 
been raised. And I direct my question to Mr. Dinh. And that is 
that with regard to the gentlelady from Texas' remarks and 
questions regarding the Federal involvement in the legislature 
in Texas. And I would just expand on that. I understand the 
position you've taken today. But should the minority in the 
Texas legislature just simply stay out of the State of Texas, 
where then they would succeed in thwarting the will of the 
people of the State of Texas, and if that went on indefinitely, 
it would simply just shut down the entire legislature of Texas 
indefinitely. So would you or would your Department foreclose 
any Federal involvement should that ultimately be the case?
    Mr. Dinh. We don't foreclose any such thing. Of course, I'm 
not familiar with the facts nor of any eventuality, so I cannot 
speculate on that. But we never say never to anything.
    Mr. King. Thank you, Mr. Dinh. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman yields back. The gentleman from 
California, Mr. Schiff, is recognized.
    Mr. Schiff. I thank the Chairman for the opportunity. I 
want to make a couple of quick points and then I have a couple 
of questions to ask. And I ask these as someone who sponsored 
the PATRIOT bill and felt that many of the changes were 
necessary to keep pace with changes in technology and the use 
of that technology by terrorists. Nonetheless, some of those 
changes, although necessary, require much more vigilant 
oversight by the Congress. And as a former assistant U.S. 
attorney very familiar with the Justice Department, I would 
have felt that way as a member of the Justice Department. I 
certainly feel that way as a Member of Congress. So we have to 
do a much more vigilant job, I think, as Members of this 
Committee than we have in the past. And I know that some of the 
questions, many of the questions that have been posed by the 
Committee on a bipartisan basis have not received very full or 
forthcoming answers. And that's of great concern. And I 
understand that some of the information is classified. And I 
understand earlier today there was a representation made that 
some of the responses will be provided to the Intelligence 
Committee. I'd like to propose that we have a classified 
hearing of this Committee. Because in addition to the 
Intelligence Committee's interest, this Committee has, I think, 
primary interest over the potential deprivation of people's 
civil liberties and civil rights. And I think that we ought to 
have an unencumbered and classified forum where we can ask 
questions about how often have library records been searched, 
under what circumstances, with what result, and get straight 
answers and not have to navigate through other Committees or 
other processes to do that.
    The second point I'd like to make is in the area of 
detention, because I think both in the original PATRIOT 
proposal and in the amended PATRIOT proposal that subsequently 
passed the Congress, and in the conduct of the Administration 
outside of the confines of the PATRIOT bill--and much of what 
concerns me has been outside the confines of the PATRIOT bill--
there are some very, I think, alarming decisions that have been 
made in the area of unlawful enemy combatants, and that is the 
Administration taking the position that it can unilaterally 
designate someone, an American, as an unlawful enemy combattant 
and deprive them of access to counsel and access to the courts. 
I think that is really unprecedented accretion of authority by 
the Executive. If I were still in the Justice Department and I 
were asked, ``Do you want the authority to unilaterally pick 
someone up off the street, call them an enemy combattant, and 
have your decision unreviewable?'' I would say no. And I don't 
think any one branch of Government ought to have that power.
    I've introduced a bill to provide some very basic 
requirements, like access to counsel and access to court, and 
allow the Department to promulgate regulations about how that 
could be accomplished and maintain the interests of the country 
and national security. But we have to find a method to provide 
some form of meaningful judicial review of the detention 
decisions. I think it's in the Department of Justice interests, 
I think it's in the country's interest. So I ask you to give 
that your consideration.
    Finally, on the PATRIOT II potential bill on the proposal 
that was aired in the Senate--it may have been withdrawn in the 
Senate--to advance the sunset date of the PATRIOT bill, I think 
that the Justice Department is going to have a lot of work to 
do in being much more forthcoming in information about how the 
first PATRIOT bill has been implemented before it ought to 
request anything further from the Congress and certainly 
anything further from anyone who supported the first PATRIOT 
bill. And I would not recommend at this point, in either house, 
seeking to advance the sunset date, because there are still a 
great many unanswered questions. And I would just ask for your 
response.
    Mr. Dinh. Thank you very much, Congressman. You are a good 
friend of the Department and an illustrious alumnus of the U.S. 
Attorney's Office in Los Angeles. I recently talked to Deborah 
Yang, and she sends her regards. And all your colleagues miss 
you there tremendously.
    We do take congressional oversight very, very seriously. We 
believe in it, especially in a highly charged investigation 
such as this. We think that it's incumbent upon us to present 
you with as much information as possible. That is why we 
recently--last week--provided 60 pages of answers to the 
bipartisan questions that were submitted to the Department.
    With respect to the section 215 business-records provision 
in particular, that requires a semi-annual report to both this 
Committee and the Intelligence Committee. I am advised that we 
did make that report on a timely manner for the last 2 years. 
The last one was in October of this last year. And I'm advised 
further that we are finalizing the next report. That will be 
provided to this Committee in a classified setting per your 
request, and I should be happy to provide that classified 
information, or my colleagues will, to you personally also.
    As I have said in answer to Congressman Watt, we are 
constantly evaluating the way we do our job, to make sure that 
we have all the authorities we need in order to protect America 
and the safety of her people. Until there is, whether there is 
a final proposal, I would not be in a position to comment on it 
except to say that I agree with you that we will fully 
cooperate on your task of overseeing how we have implemented, 
utilized to great success the authorities you have given us in 
the USA PATRIOT Act.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Virginia has requested one final question, and without 
objection he will be granted that opportunity.
    Mr. Scott. Thank you, Mr. Chairman. I just wanted to make a 
quick statement before I asked a question, and that is to quote 
language out of--quote some language for Mr. Dinh. ``It is well 
settled that the military has the authority to capture and 
detain individuals who it has determined are enemy combatants. 
Such combatants, moreover, have no right of access to counsel 
to challenge their detention. The courts have an extremely 
narrow role in challenging the military judgment to detain an 
individual as an enemy combattant. A court's inquiry should 
come to an end once the military has shown that it has 
determined that the detainee is an enemy combattant. The court 
may not second guess the military's enemy combattant 
determination. At the very most, given the separation of 
constitutional powers in this unique area, a court should only 
require the military to point to some evidence supporting its 
determination. Either way, no evidentiary hearing is required 
to dispose of a habeas petition in this military context.''
    Before you comment on that, let me just ask a question. If 
you have gathered through this data mining process some 
information--Mr. Dempsey suggested that it gets passed all 
around to whoever wants it. I noticed on page 47 of the answers 
that a group called ChoicePoint has been designated as one of 
the groups you get information from. I guess my question is, 
does that have anything to do with the Florida voting 
situation? Is that the same group? And who gets to look at the 
information that's gathered? If you're an innocent person at a 
library, does my next-door neighbor who happens to work for the 
FBI get to look at everything I have gotten from the library 
just because a terrorist may have used the same library?
    Mr. Dinh. Thank you very much, Congressman. I fully agree 
with what you've read, and there again, we agree. On what the 
Government argued, I would like to read the portion that 
immediately precedes that. It says very clearly that ``the writ 
of habeas corpus remains available to individuals, such as 
Hamdi, who are detained as enemy combatants to challenge the 
legality of their detention.'' As I have answered Mr. Nadler's 
question, our position is that the writ of habeas corpus 
remains open. But as you have read in our portion of the brief, 
we believe that the law governing such habeas corpus in the 
case of enemy combatants is highly limited and the Judiciary 
gives substantial deference to the Executive.
    With respect to your question regarding the use of----
    Mr. Scott. That wasn't deference. That has--is not review, 
``may not second guess.''
    Mr. Dinh. Yes, sir, only as long as we come up with some 
evidence. That is the existing law as we believe it to be. The 
4th Circuit has agreed with us, and we are in litigation in the 
2nd Circuit--not on this precise point, because I think the law 
is clear from the Supreme Court.
    With respect to the use of information systems, I do not 
know to which Florida issue you refer, but ChoicePoint is a 
commercially available database. That data is not data flowing 
from the Government to the private sector. That is data 
collected by the private sector for use by the private sector, 
and available for use to the Government in its law-enforcement 
purposes. When the Government collects data for law enforcement 
purposes or other purposes, its use of that data is governed by 
the applicable law. And most of that prohibits the disclosure 
of such information to the private sector. So, for example, our 
investigative files are not available. We do not make that data 
available to the general public.
    Mr. Scott. I'm talking about people that work for the FBI. 
If my next-door neighbor works for the FBI, do they get to read 
what books I took out of the library because they have data 
mined the library and gotten all the information? You're not 
releasing it publicly, just all the employees get to review 
what I took out. Is that right?
    Mr. Dinh. No, sir. The investigative files are tightly 
controlled, but precisely for the privacy--the issues that you 
have highlighted. Even as we authorize the use of information 
systems and other technology in the Department of Justice and 
the FBI with the Attorney General guidelines, we have made 
clear that existing regulations concerning the use of such 
information systems adhere. And so it has to be authorized for 
specific purposes. And a big challenge is our development of 
systems in order to select those who are authorized versus 
those who are not. And all of such access is recorded for 
subsequent disciplinary or repository use.
    Mr. Scott. Thank you. If Mr. Dempsey could just make a 
brief comment on that?
    Mr. Dempsey. There have been problems with FBI agents and 
other IRS officials, and others obtaining unauthorized access, 
and that is something that needs to be subject to careful 
controls, audit trails, internal investigations. Just recently 
I think two FBI agents were accused of, I think, basically 
running a little business on the side of selling information 
from FBI files, that DEA, all the agencies have been subject to 
that.
    The other half of the question is the authorized use and 
disclosure question. The way the laws now work there are very 
little limits on authorized disclosure where it's in the name 
of counterterrorism or law enforcement. The Defense Department 
right now is building a major new information sharing system 
intended to make that easier. The Department of Homeland 
Security has a role, the other entities being set up. Those 
need to have the rules put in place on how this private sector 
data comes into Government hands, data that has accuracy 
problems, that may have relevancy problems, data that may be 
incomplete. When you draw that in or when the Government pings 
that database or when the Government subscribes to that 
database, there are huge unanswered questions about accuracy, 
control, reuse, retention, dissemination, interpretation. Those 
rules need to be developed. They are not there now.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Scott. I appreciate it, Mr. Chairman. Thank you.
    Mr. Chabot. Thank you.
    There is a vote on the floor. When the PATRIOT Act was 
passed, assurance was given that there would be congressional 
oversight and that we would look into how this law was being 
implemented. This hearing today has been part of this process. 
We appreciate the panel's contribution to that effort.
    I would ask unanimous consent that all Members may have 
five legislative days in which to revise and extend their 
remarks and to include extraneous material.
    If there is no further business to come before this 
Committee, we're adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Legal Brief Submitted by Rep. Robert C. Scott
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
